<html>
<title> - FROM HERE TO MARS</title>
<body><pre>[Senate Hearing 113-694]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-694
 
                           FROM HERE TO MARS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                            U.S. GOVERNMENT PUBLISHING OFFICE
95-839 PDF                      WASHINGTON : 2015                           

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7611061936150305021e131a065815191b58">[email&#160;protected]</a>  





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       TED CRUZ, Texas, Ranking Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
RICHARD BLUMENTHAL, Connecticut      DAN COATS, Indiana
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2014....................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Rubio.......................................    31
    Prepared statement...........................................     9
    Prepared statement of Dean Cheng, Senior Research Fellow, The 
      Heritage Foundation........................................    31

                               Witnesses

William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations, National Aeronautics and Space 
  Administration.................................................     3
    Prepared statement...........................................     5
Susan Eisenhower, Chairman Emeritus, Eisenhower Institute, 
  President, Eisenhower Group, Inc...............................    10
    Prepared statement...........................................    12
Dr. Leroy Chiao, Former NASA Astronaut; Commander, International 
  Space Station Expedition 10; Special Advisor for Human 
  Spaceflight, The Space Foundation; and Chairman, National Space 
  Biomedical Research Institute User Panel.......................    15
    Prepared statement...........................................    18
Jeffrey Manber, Managing Director, NanoRacks, LLC................    20
    Prepared statement...........................................    22

                                Appendix

Response to written questions submitted by Hon. Bill Nelson to:
    William H. Gerstenmaier......................................    49
    Dr. Leroy Chiao..............................................    50


                           FROM HERE TO MARS

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning.
    Thank you all for coming. We have held, in this committee, 
a number of hearings on space exploration. We've highlighted 
how the technologies developed benefit our lives here on Earth. 
We've discussed the potential dangers of near-Earth objects. 
We've heard about the growing commercial space industry. We've 
explored how NASA's efforts will eventually allow us to put an 
American on Mars. We even heard last year, via downlink, from 
the ISS about some of the amazing work that is going on up 
there. And all of that means that we have plenty of chances to 
share the excitement about the space program.
    But, look. It's an empty dais. And it'll just be Senator 
Rubio and me when he arrives. And he's filling in for Senator 
Cruz who understandably is in Texas today for the memorial 
service at the Army base there.
    So we need to generate some excitement, again, among the 
American people. And, of course, things give us a problem. Now 
we have the tensions with Russia. Is it going to impact the 
space program?
    As we've seen before, the exploration of space has been the 
one area in times of geopolitical conflict that we can rise 
above that. So NASA's success is not only a product of 
tremendous investments in technology, but also in international 
cooperation. And I believe that we need to continue that 
tradition.
    Geopolitics may or may not affect the nation's exploration 
mission. It certainly affected it back at the dawn of the Space 
Race, because of the launch of Sputnik. NASA was designed, in 
part, to demonstrate to the world the power of the American way 
of life.
    NASA's 1958 Organic Act signed by the grandfather of Susan 
Eisenhower, President Eisenhower, stated that U.S. space 
activities should contribute to international cooperation. When 
Secretary of Defense McNamara and NASA Administrator Jim Webb 
proposed a lunar mission to the Kennedy administration in 1961, 
they argued that ``Our attainments (in space) are a major 
element in the international competition between the Soviet 
system and our own.''
    And yet, NASA was a vehicle for working with the Soviets in 
the midst of the Cold War with all of the ICBMs pointed at each 
other with nuclear weapons. In 1975, we had Apollo-Soyuz, the 
first linkup between a Soviet and U.S. spacecraft, which 
President Nixon viewed as important in pursuing detente. 
General Tom Stafford, the leader of that mission, with General 
Alexei Leonov, they rendezvoused a Soviet space craft and an 
American space craft. They docked and they lived together in 
space for 9 days.
    And you talk about a role model for international 
cooperation. Look at the friendship today between Tom Stafford 
and Alexei Leonov. And General Stafford testified here. He 
called it ``The shining light during the Cold War Era in our 
relationship with the Soviet Union.'' That's what Tom said 
here.
    And so, today, the ISS, a stunning example of engineering 
and cooperation, combines the contributions of 15 partner 
nations and the famous NASA-Mars Curiosity Rover carries 
instruments provided by France, Canada, Germany, Russia and 
Spain. So our leadership in space is a result of decades of 
strategic investment. If we want to maintain that position, 
then the investments that we're making today have got to be 
strategic.
    And yet, we're in an era of limited budgets. The space 
arena now includes new players like China, India, and the 
private sector.
    So as we look to the future, there are a few questions that 
I would like to propose. What do we get out of our investment 
in being pioneers in space? Number two, how will each mission 
such as the Asteroid Redirect Mission, help meet our space 
exploration goals and benefit American interests? And Bill 
Gerstenmaier is going to speak to that. Number three, when and 
how will we cooperate with international and commercial 
partners? And which partners will we exclude, and why?
    Following so many decades of advancement in space and given 
the high cost and amazing benefits of exploration, there's no 
room for rash actions but only for very careful decisionmaking. 
Those leading exploration efforts will realize it is a truth: 
those that lead will realize the economic scientific and 
political benefits.
    And so, it's my pleasure to introduce today's witnesses. 
Bill Gerstenmaier, NASA Associate Administrator for Human 
Exploration and Operations. Susan Eisenhower, President of the 
Eisenhower Group, author of Partners in Space, which details 
U.S.-Soviet cooperation. She will discuss lessons learned. Dr. 
Leroy Chiao, Special Advisor for Human Space Flight to the 
Space Foundation, former Commander of the ISS and a former 
member of the Augustine Commission. He will discuss the 
advantages and complications associated with international 
cooperation. Jeffrey Manber, Managing Director of NanoRacks and 
the author of Selling Peace, a book about work with the Russian 
space program. He will address the potential for commercial 
involvement and expiration Beyond Low-Earth Orbit.
    Mr. Gerstenmaier.

        STATEMENT OF WILLIAM H. GERSTENMAIER, ASSOCIATE

        ADMINISTRATOR, HUMAN EXPLORATION AND OPERATIONS,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. Thank you, Mr. Chairman. And thanks for 
the opportunity to participate in this hearing entitled ``From 
Here to Mars.''
    I'll briefly describe NASA's approach to human spaceflight 
that takes humans eventually to Mars. NASA does not see this as 
a monolithic mission or a classic design reference mission 
approach. NASA in this constrained and uncertain budget 
environment is building the infrastructure--that's operations, 
techniques, international involvements, spacecraft and 
hardware--that will allow us to make sustained progress toward 
a human presence on the surface of Mars.
    NASA is developing capabilities and systems that will allow 
a human presence off the Earth and in the solar system. We're 
going off the Earth while benefiting the inhabitants of the 
Earth. NASA is making significant progress. Each of our 
activities are judged through the lens of being critical and 
used in future Mars-class missions. We are not building a 
single one-time optimized mission to Mars, but an 
infrastructure that allows humans to pioneer the solar system.
    NASA sees three unique regions in space: Earth-reliant, 
where the ISS resides today; two, the proving ground, where the 
Asteroid Redirect Mission will occur in the vicinity of the 
Moon; and three, Earth-independent, or Mars-ready. These 
regions for human presence require gradually increasing risk 
acceptance, hardware reliability, and operational complexity.
    NASA believes that its step-wise approach is superior than 
attempting a Mars-class mission without proper preparation. 
Just as Mercury and Gemini prepared the way for Apollo, we see 
ISS, in the Earth-reliant region, and the Asteroid Redirect 
Mission, a first mission in the proving ground around the Moon, 
as paving the way for Mars-class missions. We also see a 
significant opportunity to work with the Science Mission 
Directorate and international partners on this approach.
    The International Global Exploration Roadmap, developed by 
12 countries, supports this approach. The roadmap provides a 
framework to guide countries in their role for human 
exploration. NASA's current plans are implementing those first 
key pieces of that roadmap.
    The ISS plays a critical role. The ISS not only benefits 
life on Earth but has a critical role in exploration and 
pioneering of the solar system. ISS is not only helping to 
understand how the human body will adapt in the long-duration 
space flight and allowing us to test high reliability hardware 
such as life support for Mars-class missions, but it's allowing 
us to build strong international relationships and experiment 
with commercial private sector capabilities.
    It's clear that international involvement will be critical 
to any Mars-class mission. Jeff Manber and NanoRacks have shown 
the direct benefit of utilizing the commercial sector and 
nongovernmental investments to augment government-sponsored 
activities. Mars-class missions will drive technology and will 
require international and commercial involvement.
    ISS is the first critical step in exploration. Two other 
critical components are the Heavy Lift Launch Vehicle, SLS, and 
Orion. It's clear from all studies that a Heavy Lift Launch 
Vehicle is needed. When I see Russia and China beginning to 
talk about the need for a Heavy Lift Launch Vehicle, this 
reaffirms our analysis.
    Orion is making tremendous progress. The avionics testing 
in Florida completed yesterday for the test mission this fall. 
Orion is making tremendous progress. Eighty percent of the 
software and basic avionics that will be used on the test 
flight this fall are the same that will be planned for future 
Orion flights. The test this fall also verifies heat shield 
performance.
    SLS tests and manufacturing is well underway in New 
Orleans. Several barrel sections and domes are complete and a 
vertical weld assembly is being installed in New Orleans that 
will allow these sections to be welded into a tank.
    Flight hardware for the Exploration Mission 1, an un-crewed 
test of SLS and Orion, is beginning to be manufactured this 
year in New Orleans. The European service module for the 
Exploration Mission 1 is undergoing preliminary design review 
in Europe. This is tremendous progress and reflects the 
international involvement lessons learned directly from ISS. 
There is real hardware in manufacture for the path to Mars.
    Last, teams are working on the Asteroid Redirect Mission. 
Solid trades in analysis and requirements are in work. There 
are concepts being investigated--one that captures an asteroid 
and returns it into a distant retrograde orbit around the Moon; 
and another that removes a boulder from a large, potentially 
hazardous asteroid and also moves this boulder to an orbit 
around the Moon.
    This mission leverages off of activities that were already 
in work: asteroid identification, solar electric propulsion, 
and uses the basic capabilities of SLS and Orion. The solar-
electric bus used for this mission will be the bus used for 
Mars cargo-class missions. This mission allows for significant 
operations development in the proving ground of space near the 
Moon.
    If international partners or commercial companies have 
interest in a lunar surface operation, the techniques, lunar 
gravity assists, et cetera, developed by the Asteroid Redirect 
Mission, will enable NASA to support their efforts. The 
Asteroid Redirect Mission will make significant progress toward 
furthering the knowledge needed for a Mars-class mission.
    NASA has a strong approach that extends human presence into 
the solar system. This approach starts with the International 
Space Station and a firsthand knowledge gained from the ISS and 
systems, human health, international, and commercial 
partnerships.
    There's still a lot of work for ISS. The extension of ISS 
operations to at least 2024 was critical. There's also a lot of 
work needed to establish Commercial Crew capability to the ISS.
    The approach, ISS, SLS, Orion, and the Asteroid Redirect 
Mission, coupled with commercial and international involvement, 
is well underway today. We have a sound approach that is 
sustainable, leading to an eventual human presence on Mars. 
Human exploration and pioneering are more than a single 
hardware development activity but are an integrated series of 
activities all of which are required to take us from here to 
Mars.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]

Prepared Statement of William H. Gerstenmaier, Associate Administrator, 
   Human Exploration and Operations, National Aeronautics and Space 
                             Administration
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to testify before you on NASA's exploration efforts. 
Consistent with the NASA Authorization Act of 2010, NASA's space 
exploration architecture is based on capabilities that will support 
multiple missions and destinations, enable private access to--and use 
of--space, and complement and advance other NASA, national, and 
international objectives and goals. This architecture is intended to be 
sustainable over the long term and affordable. This endeavor is 
responsive to changing environments, including on-ramps for new 
technologies, new approaches, and other space players. We also are 
tightly coupling the planning of our science and technology portfolios 
with this strategy.
    Our architecture is designed for long-term human exploration of our 
solar system, including the goal of human missions to Mars. NASA's 
near-term strategy for exploration has four prongs: using the unique 
environment of International Space Station (ISS) to conduct the 
research and technology demonstrations necessary to keep our crews safe 
and productive on long-duration spaceflights; partnering with 
commercial entities to develop the capacity to transport cargo and crew 
affordably to low-Earth orbit (LEO); working in cooperation with other 
NASA Directorates to better understand exploration destinations and 
improve our ability to work there; and moving outward to deep space 
with Orion and the Space Launch System (SLS) to take us there. Orion 
and the SLS are foundational capabilities for the implementation of our 
integrated human and robotic exploration strategy. We will then travel 
beyond LEO to the proving ground of cis-lunar space, where we will 
expand and test our capabilities in a rendezvous with a redirected 
asteroid in lunar orbit. These steps will build the foundation for 
further deep-space exploration. With the technologies and techniques we 
develop, we will enable expeditions to multiple destinations, 
ultimately allowing us to pioneer Mars and other destinations as we lay 
the groundwork for permanent human settlements in the solar system. 
Conceived in coordination with our international partners, this 
strategy maintains America's role as the world's leader and 
foundational partner in space exploration.
The International Space Station: Learning the Fundamentals in LEO
    The ISS is an unparalleled asset for the conduct of research and 
technology development in a unique, microgravity environment. The full 
focus of ISS is on operations and research to: (1) improve our ability 
to live and work in space, including enabling human exploration beyond 
LEO; (2) enable development of a demand-driven commercial 
transportation and research market in LEO; (3) enable science, 
engineering research, and technology development in the fields of 
Earth, space, life (biological and human research), and physical 
sciences; and (4) derive tangible benefits for citizens on Earth.
    NASA's Human Research Program continues to develop biomedical 
science, technologies, countermeasures, diagnostics, and design tools 
to keep crews safe and productive on long-duration space missions. The 
progress in science and technology driven by this research could have 
broad impacts on Earth as it advances our ability to support long-
duration human exploration.
    On board the ISS, we are conducting technology demonstrations and 
development efforts to advance human and robotic exploration beyond LEO 
and the Station also serves as the foundation for an international 
exploration partnership. As an example of both the technology 
demonstration and exploration partnership aspects of the ISS, NASA is 
preparing for an extended duration, year-long human mission to explore 
human adaptation to space. The mission, which will involve NASA 
astronaut Scott Kelly and cosmonaut Mikhail Kornienko of the Russian 
Federal Space Agency, is slated to launch in March of 2015. The ISS 
partnership is strong, and the agencies involved continue to work 
together in the mutual pursuit of peaceful space exploration. Plans 
remain on track for upcoming launches to the Station and return of 
astronauts to Earth. Later this year, NASA intends to select from among 
American companies competing to provide crew transportation to the ISS 
beginning in 2017. In the meantime, NASA and its partners will continue 
to work with each other to maintain the Station, where humans have 
lived continuously for more than 13 years, and we are confident that 
the agencies will continue to work as closely as they have in the past.
    Two U.S. companies--Space Exploration Technologies and Orbital 
Sciences Corporation--are supporting the ISS under Commercial Resupply 
Services (CRS) contracts. Purchasing cargo and crew transportation 
services from U.S. companies allows NASA to focus its efforts on 
developing the vehicles that will take our astronauts beyond LEO and to 
multiple deep-space destinations.
Orion and SLS: Traveling Beyond LEO
    The dedicated NASA-Industry team, working across the Nation 
utilizing all of the NASA Centers and our primary industry partners, 
Lockheed Martin, Boeing, ATK, and Aerojet-Rocketdyne, is making 
excellent progress toward developing the next capabilities for human 
and robotic space exploration missions beyond LEO. The flight test 
milestones driving the schedule include the uncrewed Exploration Flight 
Test-1 (EFT-1) this December, the first uncrewed launch of Orion and 
SLS on Exploration Mission-1 (EM-1) in FY 2018, and the first crewed 
launch of Orion and SLS on Exploration Mission-2 (EM-2) in FY 2021-22. 
Both Orion and SLS are being designed to enable multiple missions and 
destinations rather than being optimized for one particular mission or 
architecture. Early missions will explore cis-lunar space and 
rendezvous with and return samples from a near-Earth asteroid, as well 
as demonstrate capabilities to support deep-space human research and 
exploration in a safe and sustainable manner. SLS will be evolvable to 
provide progressively greater lift capability, and, with Orion, will 
enable mankind to successfully navigate the proving ground of deep 
space, ultimately sending humans to a variety of destinations in the 
solar system, including Mars.
    The Orion spacecraft will be capable of taking humans farther into 
deep space than ever before, to multiple destinations as needed, and 
sustaining them in this challenging environment for longer than ever 
before. The Orion spacecraft includes both crew and service modules, 
and a Launch Abort System that will provide for crew safety during 
ascent. Orion can fly a crew of up to four for 21 days; if used in 
concert with a potential future Habitation Module, Orion will be able 
to support larger crews on extended-duration missions. Orion has a 
focused and rigorous step-wise test campaign to validate these 
capabilities in the challenging deep-space environment.
    This year's EFT-1 flight test will serve as a pathfinder to 
validate innovative approaches to space systems development. The test 
will demonstrate spacecraft post-landing recovery procedures and the 
launch vehicle adapter, which will also be used on EM-1 and EM-2. EFT-1 
will allow us to test the heat shield at about 85 percent of lunar re-
entry velocity, protecting the vehicle from temperatures near 4,000 
degrees Fahrenheit. The EFT-1 flight test will significantly reduce or 
eliminate 10 of the top 16 risk drivers for the first crewed flight 
(EM-2). The flight test will also demonstrate 47 percent of the design, 
development, test, and evaluation (DDT&E) required for EM-2, and 
includes 50 percent of the software needed for the first crewed 
mission. Not only is EFT-1 testing hardware and software, but it also 
is testing key processes which will be needed for EM-2.
    The SLS is a heavy-lift launch vehicle that will transport Orion, 
as well as cargo and other systems, with a range of lift capabilities 
from 70 metric tons, evolving to 105 metric tons and eventually up to 
130 metric tons, based on future mission requirements. The evolution of 
the SLS lift capability fulfills specific, important roles within the 
exploration architecture, with the 130-metric-ton vehicle supporting 
full capability asteroid missions and ultimately missions to Mars.
    In 2014, NASA will make significant strides in SLS development. The 
testing of the Booster Qualification Motor-1 (QM-1) will occur this 
year with a test firing of the motor, and fabrication of the QM-2 motor 
will be completed. Manufacturing will begin on key components of the 
SLS vehicle to be used for the EM-1 mission, including Boosters, 
interim cryogenic propulsion stage (ICPS), and major components of the 
Core Stage (tanks, engine structure, intertank, and forward skirt), as 
well as the associated Structural Test Articles (STAs). Additionally, 
the Vertical Assembly Center at Michoud Assembly Facility will be 
completed this spring, as well as modifications to the A-1 Test Stand 
at the Stennis Space Center for testing of the RS-25 Core Stage 
engines. The SLS Program will conduct the detailed design review 
(Critical Design Review) for the Booster and Core Stage elements. 
Definitization of SLS contracts for Core Stages and the ICPS will be 
completed this year, as well.
    The Ground Systems Development and Operations (GSDO) team at 
Kennedy Space Center (KSC) continues to make significant progress on 
the necessary Exploration Ground Systems (EGS) infrastructure design, 
development, and refurbishment to support SLS and Orion. KSC also is 
providing valuable operations expertise to the SLS and Orion teams to 
address operational issues in the design in order to help reduce 
eventual production and operations costs. This is a key aspect of 
assuring long-term sustainability for deep-space human exploration. In 
2014, construction of new platforms in the Vehicle Assembly Building at 
KSC will enable SLS and Orion stacking and preflight processing as 
planned. Refurbishment and upgrades to a crawler-transporter, to 
accommodate up to the 130-metric-ton version of SLS--a vehicle more 
powerful than the Saturn V--are being performed to support the FY 2018 
EM-1 flight of SLS and Orion.
    Orion, SLS, and EGS teams are using the latest in systems and 
manufacturing technology with the intent of developing the safe, 
affordable, and sustainable systems this country needs to extend human 
presence to Mars. For example, the Orion team is using time-triggered 
Ethernet and is taking advantage of the standards for this technology 
that are used in the automotive industry. The SLS team has mastered the 
development of friction-stir welding on large structures to build the 
SLS Core Stage, culminating in the most advanced and largest friction-
stir weld machine in the world. The EGS team has stripped out the old 
copper cables from Pad 39B and replaced them with the latest in fiber 
optics. These are three simple examples of how NASA's Exploration 
Systems are utilizing and advancing the latest in technology.
    In developing the Orion, SLS, and EGS, NASA is seeking to build a 
sustainable National capability for the long-term human exploration of 
space. By providing more volume and mass for payloads, SLS could enable 
the simplification of the design and trajectories of future spacecraft. 
The evolving capabilities of these systems will provide the Nation with 
flexibility over the long term to achieve a variety of goals. As we 
move out into the solar system to establish footholds in a variety of 
locations, having such flexibility will be important, as future 
missions can be built on what our astronauts and robotic probes learn 
during earlier expeditions.
    NASA's Advanced Exploration Systems (AES) Division is pioneering 
approaches for rapidly developing prototype systems, demonstrating key 
capabilities, and validating operational concepts for future human 
missions beyond LEO. This work is important to enable exploration 
missions and ensure that they are safe, affordable, and sustainable. 
Activities focus on crewed systems for deep space, and robotic 
precursor missions that gather critical knowledge about potential 
destinations in advance of crewed missions. Major products include 
systems development for reliable life support, asteroid capture 
mechanism risk reduction, deep space habitats, crew mobility systems, 
advanced space suits, and autonomous space operations. As prototype 
systems are developed, they are tested using NASA ground-based 
facilities or flight experiments on the ISS. The AES Division works 
with the Space Technology Mission Directorate to infuse technologies 
into exploration missions, and with the Science Mission Directorate on 
robotic precursor activities. The Space Technology Mission Directorate 
supports exploration by investing in capabilities needed for deep-space 
exploration including advanced life support, entry, descent, and 
landing technologies, advanced space robotic systems, advanced thermal 
management technologies, advanced batteries and fuel cells, lightweight 
structures, cryogenic storage and transfer capabilities, and in-situ 
resource utilization.
Asteroid Redirect Mission: Expanding Our Capabilities for Deep Space 
        Missions
    NASA will employ SLS and Orion for an early human exploration 
mission to perform pioneering human operations further from the Earth 
than ever before, rendezvousing with and returning samples from an 
asteroid redirected to at stable orbit around the Moon by the robotic 
segment of the Asteroid Redirect Mission (ARM). The ARM is composed of 
three separate elements: the detection and characterization of 
candidate near-Earth asteroids; the robotic rendezvous, capture, and 
redirection of a target asteroid to a stable orbit around the Moon; and 
the crewed mission to explore and sample the captured asteroid using 
the SLS and the Orion crew capsule. Each mission element is heavily 
leveraging ongoing activities in NASA's Space Technology, Science, and 
Human Exploration and Operations Mission Directorates. The mission 
integrates a variety of technologies and capabilities important to 
future crewed missions to Mars and other deep space destinations. These 
include: the acceleration of high-power solar electric propulsion 
development, which will power the ARM mission and also has future 
science, commercial, and human exploration mission applications; and 
rendezvous with and maneuver of a non-cooperative target in deep space, 
which is enabling for missions to other deep-space destinations. The 
technologies needed for this mission, for example in power, propulsion, 
guidance and navigation, life support, and EVA, will be applicable to 
future human missions to Mars.
    The ARM mission is part of the overall plan for human exploration 
and pioneering. It allows for operations in the proving ground of cis-
lunar space, builds off of the skills learned from ISS, prepares the 
way to support potential lunar activities of our commercial or 
international partners, and builds the skills and hardware needed for 
Mars-class missions. This mission represents a technological 
challenge--raising the bar for human exploration and discovery, while 
advancing detection of near-Earth asteroids and bringing us closer to 
human missions to Mars. NASA has already identified a number of 
candidate asteroids for this mission; the Agency is also continuing to 
refine estimated costs, and, at this time, we anticipate that the 
incremental cost of the mission will be less than half of what the 
initial Keck Study projected. The ARM would affordably support and 
leverage multiple efforts across the Agency as it paves the way for 
journeys to other destinations by helping NASA prove out its new heavy-
lift launch vehicle and exploration spacecraft in a near-term mission.
Exploring Mars and Other Deep Space Destinations
    NASA has been executing an integrated human and robotic exploration 
strategy leading to the human exploration of Mars. The capabilities 
required for a human mission to Mars have been understood for some 
time. The implementation steps and investments, partner approaches, and 
technical pathways to Mars are varied. NASA will ramp up its 
capabilities to reach--and operate at--a series of increasingly 
demanding targets, while advancing technological capabilities with each 
step forward. This will include early test and demonstration activities 
in cis-lunar space as called for in the NASA Authorization Act of 2010. 
The Agency is tightly coupling the planning of its science and 
technology portfolios with this strategy where appropriate.
    As noted earlier, the Agency will conduct a series of test and 
demonstration flights, including EFT-1 with Orion flying uncrewed in 
2014, EM-1 with Orion and SLS flying uncrewed in FY 2018, and the 
crewed EM-2 mission with Orion and SLS in FY 2021-22. In this vein, ARM 
will exercise these and other capabilities now in development. These 
missions will help develop the foundation for longer journeys to 
destinations which could include near-Earth Asteroids, the Moon, the 
moons of Mars, and then Mars itself. NASA's Orion and SLS will enable 
the Agency to send astronauts beyond LEO for the first time since 1972 
and will provide the Nation a capability and architecture designed to 
also allow flexibility, partnering, and technological on-ramps. This 
strategy for human space exploration will ensure that the United States 
fosters a safe, robust, sustainable, and flexible space program by 
developing a set of core evolving capabilities instead of specialized, 
destination-specific hardware, to achieve human presence in 
successively farther destinations across the solar system.
    NASA's exploration strategy is consistent with the Global 
Exploration Roadmap (GER), released in August 2013 by NASA with 11 of 
our international space agency partners in the International Space 
Exploration Coordination Group. The GER helps demonstrate how NASA's 
ARM and milestones leading up to it are important steps toward 
realizing our goal of future missions to Mars together with our 
international partners. It also demonstrates that NASA, together with 
its international partners, shares a common interest in advancing a 
unified strategy of deep-space exploration, with robotic and human 
missions to destinations that include near-Earth asteroids, the Moon 
and Mars. The roadmap begins with the ISS and includes a step-wise 
expansion of human presence into the solar system, with human missions 
to the surface of Mars as a driving goal. The roadmap expands on 
missions to send humans to the lunar vicinity, a proving ground that 
allows nations to advance exploration capabilities and learn to manage 
risks while using the presence of the crew to explore asteroids and the 
Moon. Our support of the GER helps our international partners seek 
funding support for strong roles in implementing the international 
strategy.
    While there will always be challenges in involving multiple nations 
with diverse national interests in an interdependent human space 
effort, pioneering the solar system cannot effectively be undertaken by 
any one country. The partners' participation in the GER demonstrates 
their interest in an incremental, international approach to expanding 
human presence into the solar system. Utilizing the key capabilities of 
SLS and Orion, this roadmap builds on our collective successes to date, 
highlights many exploration preparatory activities underway around the 
world that will drive innovation and new technologies, and encourages 
collaboration and integration between human and robotic exploration to 
return great benefit to the global community.
    NASA is also discussing with our ISS International Partners 
exploration uses of and transition beyond the Station. These 
discussions are being held under the auspices of the Multilateral 
Coordination Board/Heads of Agencies to fully utilize the research and 
technology development capabilities of the ISS and to explore 
partnership opportunities based on the Station partnership.
Conclusion
    NASA's exploration strategy will use an approach of pioneering 
multiple destinations in the solar system. Over time, we will move 
beyond conducting limited-duration forays to distant destinations and 
begin to lay the groundwork to establish outposts, build settlements, 
and utilize in situ resources as we expand the reach of humanity. The 
key to realizing this goal will be to channel all of the factors that 
have enabled our space achievements to date in a way that will ensure a 
sustainable foundation on which future generations can continue to 
build. So we will involve the private sector, taking advantage of 
entrepreneurial drive and business acumen to find novel solutions to 
the challenges we face. We will engage international partners, who will 
bring to the table their own unique scientific and technological 
expertise--expanding humanity's presence into space is too large a task 
for any one country to go it alone. Finally, we will strive to achieve 
the optimal balance of human and robotic exploration, taking advantage 
of what humans and machines each do best as we search for life in the 
universe and pursue a variety of objectives and goals. This long-term 
effort will expand the sphere of human life and activity, and draw upon 
the pioneering spirit and ingenuity in the face of the seemingly 
impossible that have helped make the U.S. the exceptional nation that 
it is.
    Mr. Chairman, thank you for the opportunity to appear before you 
today to provide you with our progress and status over the past year as 
we look forward to EFT-1 and the award of Commercial Crew 
Transportation Capability later this year, and the first uncrewed SLS/
Orion mission in FY 2018. We have a strong strategy that extends human 
presence into the solar system--beginning with Mars--in an affordable 
and sustainable manner. ISS, Commercial cargo and crew, Orion, SLS and 
the Asteroid Redirect Mission are all first steps in that strategy. I 
would be happy to respond to any questions you or the other Members of 
the Subcommittee may have.

    Senator Nelson. Senator Rubio is going to submit his 
opening statement for the record. And, of course, for each of 
you in your written testimony, it will be inserted as part of 
the record.
    [The prepared statement of Senator Rubio follows:]

   Prepared Statement of Hon. Marco Rubio, U.S. Senator from Florida
    Thank you, Mr. Chairman, for having today's hearing on the human 
exploration of space. It is important that the subcommittee examine 
NASA's plans for human exploration, including collaboration with 
international partners and commercial space opportunities. Clearly 
today's hearing is timely given the impact of national security and 
current geopolitical issues on our space program.
    NASA states that its vision is ``to reach for new heights and 
reveal the unknown so that what we do and learn will benefit all 
humankind.'' I certainly agree with this vision. But in order to 
achieve it, the agency must have a clear mission with a roadmap and 
timeline outlining how that mission will be accomplished.
    But a roadmap and timeline will only take the agency so far. NASA's 
mission must also be accompanied by a strong commitment to achieving 
it.
    Obviously one of the main factors impacting NASA's mission and its 
exploration programs is the agency's funding. The current budget 
environment is forcing NASA to balance priorities, which makes it 
difficult to achieve large exploration programs while sustaining 
commitments to other scientific efforts that do not always get NASA in 
the news.
    Given this situation, NASA has to spend wisely. This is why I 
believe that NASA must identify common sense savings to help prioritize 
and fund space operations. One area where I believe NASA can reduce 
costs is by reexamining its many underused and outdated facilities and 
properties, which cost billions of dollars to keep and maintain.
    Infrastructure that is duplicative or no longer needed for NASA's 
exploration roadmap should be reallocated to commercial users and state 
and local entities. This would result in savings for NASA, a reduction 
in the Federal Government's footprint and burden to fund space 
operations, and an incentive for commercial space activities.
    The State of Florida and the Kennedy Space Center (KSC) have 
already benefitted from reallocated infrastructure. But more needs to 
be done at KSC and around the country. Every facility must examine ways 
to reduce costs to ensure the agency can continue reaching new heights 
and revealing the unknown.
    One expenditure that continues to get attention and that is 
relevant to today's discussion is the $70 million NASA pays Russia to 
transport one astronaut to the International Space Station. This 
underscores the fact that the United States, the Nation that has 
accomplished more in space than any other, currently has no way of 
transporting its citizens into space. The United States should never 
have to buy tickets to space.
    Now, the purpose of today's hearing is not to prosecute this issue. 
This committee has had numerous hearings investigating why NASA has to 
pay Russia for access to space, and how the agency and its commercial 
partners are working to end this arrangement by achieving commercial 
crew capabilities.
    But that does not mean this committee should not examine who we are 
paying for access to space, especially when it is a nation and a leader 
with whom we have strong disagreements. Yesterday I highlighted the 
fact that Russia uses its energy resources as leverage over its 
neighbors, and I called for a long-term strategy to break this energy 
dependence from Russia.
    Well it would certainly seem that Russian leverage applies to 
today's discussion. Not only is it about leverage, but it is also about 
prestige. Vladimir Putin believes that Russia has lost its influence in 
the world since the collapse of the Soviet Union, and he views himself 
as a historic figure that's going to restore Russia to its rightful 
place, in his mind, as a global power.
    One way he sees to do this is to gain influence and leverage over 
other countries. When it comes to space exploration, the Russians 
clearly have leverage over the United States. The question is whether 
Russia is using this leverage to influence the United States and NASA 
and serve its own space exploration goals.
    I hope this hearing and today's witnesses will help shed light on 
that question and provide the Committee with a better understanding of 
how the geopolitical situation in Ukraine is impacting America's space 
program.
    Thanks again to Chairman Nelson, and I want to thank the witnesses 
for testifying before the Committee.

    Senator Nelson. Ms. Eisenhower.

       STATEMENT OF SUSAN EISENHOWER, CHAIRMAN EMERITUS,

              THE EISENHOWER INSTITUTE; PRESIDENT,

                   THE EISENHOWER GROUP, INC.

    Ms. Eisenhower. Members of the Subcommittee, thank you for 
this opportunity to testify before you today. It's an honor to 
be here.
    I hope to address the geopolitical issues surrounding 
NASA's exploration efforts. It's impossible today to think 
about space exploration strategy without putting it into the 
context of today's events in Russia and Ukraine. I support 
well-targeted sanctions on Russia which will have a direct 
impact on President Putin's thinking. But for reasons I will 
outline, I believe that rolling back space cooperation could be 
counterproductive and damaging to our national security and our 
long-term space agenda.
    International cooperation is vital if missions of 
increasing complexity are on the international agenda such as 
Mars. During the Cold War, scientific and technological 
communities played a vital role in serving as a bridge between 
the United States and the Soviet Union and then Russia. 
Especially during times of crisis, many multilateral and even 
bilateral interactions survived the Soviet invasion of Hungary, 
Sputnik, the U-2 incident, the Cuban missile crisis, as well as 
the Soviet invasions of Czechoslovakia and later Afghanistan. 
But since the Cold War ended, U.S.-Russian cooperation on 
nuclear security and in space has been at the heart of 
enhancing the United States' national security.
    The restrictive measures on space cooperation announced by 
NASA last week, however, could well threaten our achievements 
of the last 20 years. Here are three reasons why we need to 
lift last week's ban on all cooperation outside of the 
operations related to the ISS.
    Number one, our national security is greatly enhanced 
through cooperation. Since 1992, U.S.-Russian cooperation in 
space has had a positive impact on the transformation of the 
Russian aerospace industry, which was at the time of the Soviet 
Union's collapse, a bastion of Soviet hardliners. U.S. 
interaction with the Russians on the Shuttle Mir program and 
then the International Space Station brought unprecedented 
transparency and access to sensitive Russian facilities along 
with a growing adoption in Russia of Western best practices. 
Since then, the lessons we've learned together have 
strengthened our overall performance in space beyond just the 
ISS. And it provided an indispensable window into the workings 
of the Russian military industrial establishment.
    Number two, if the goal of limiting cooperation is designed 
to send a strong signal to President Putin, we need to be 
careful. It could well backfire. The Russian scientific 
community, as opposed to the Soviet aerospace industry, has 
traditionally been the most progressive of all sectors in that 
country. But today, both sectors in Russia, both the scientists 
and the aerospace industry, see themselves as our friends. 
Rather than sending a strong message to President Putin, 
suspension of cooperation will strengthen political hardliners 
who would prefer that Russia ``go it alone'' or work with 
countries more sympathetic to their views.
    Number three, safety depends on trust. Much has been said 
about our mutual dependency in space. Safety of human life 
requires cooperation. At the moment, operations on the space 
station are proceeding as normal. Trust, however, that 
invaluable yet fragile commodity, can be easily eroded. NASA's 
announcement last week that it will suspend ``the majority of 
its ongoing engagements including high-level visits, e-mail 
exchanges, and video conferencing'' could leave many of our 
friends in Russia high and dry and potentially change the more 
general atmosphere. Collective attitudes even in the Russian 
space sector could change, which might negatively impact 
working relationships on the ISS and potentially even safety.
    In conclusion, I would like to reemphasize that we know 
from history that it is always easier to terminate space 
cooperation than it is to get it started again. And we will not 
be able to meet our long-term goals in space without it. We 
should consider establishing the general principle going 
forward that space cooperation should be exempt from sanctions. 
Space has the unique capacity to serve the global community. It 
can be a force for preventative diplomacy, transparency, and 
for sustaining and building bonds among those who are willing 
to put solely national pursuits aside.
    The lynchpin of this goal must be engagement. We must be 
wary of any space policy that provides only short-term symbolic 
satisfaction just as we should be cautious of those in both 
countries who might want to exploit this crisis for short-term 
commercial or political gain. They could ultimately undermine 
our long-term strategy in space and possibly jeopardize the 
enormous human and financial investment we have already made.
    Thank you very much. I look forward to questions.
    [The prepared statement of Ms. Eisenhower follows:]

      Prepared Statement of Susan Eisenhower, Chairman Emeritus, 
    The Eisenhower Institute; President, The Eisenhower Group, Inc.
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to testify before you today. It is an honor to be here.
    I hope today to address the geopolitical issues surrounding NASA's 
exploration efforts. I served on the NASA Advisory Council for eight 
years and was also a member of the International Space Station 
Management and Cost Evaluation Task Force. However, it was not until I 
wrote Partners in Space: U.S.-Russian Cooperation after the Cold War 
that I fully understood the operational and geostrategic benefits of 
U.S.-Russian cooperation in space. It is this point that I would like 
to examine with you today.
    I would like to make it clear before I begin that it is essential, 
I think, for the United States and its allies to respond to the ongoing 
situation in Ukraine with appropriate and well-targeted sanctions on 
Russia, which will have a direct impact on President Putin's thinking. 
For reasons that I will outline, I do not believe, however, that 
disengaging in space cooperation is in our national interest.
Near and long-term goals
    It has long been NASA's strategy to engage our international 
partners, who have diverse and valuable scientific and technological 
expertise. This is vital if missions of increasing complexity are on 
the international agenda.
    This strategy has not only proven to be successful through 
cooperation on the International Space Station, I believe it will be 
the only way we can meet our long-term objectives of expanding 
mankind's presence in space. The issue then is not about long-term 
strategy, but about appropriate short-term measures--given the current 
geopolitical environment.
    As you well know, strategy has to be informed by a simple calculus. 
Do the short-term and the long-term goals mesh? Or do short-term 
actions jeopardize or pose insurmountable road blocks to meeting one's 
overarching goal?
    With those simple questions in mind, I was concerned to read NASA's 
announcement last week that, in light of the Crimean crisis, NASA will 
suspend ``the majority of its ongoing engagements'' with Russia, with 
the exception of continued U.S.-Russian cooperation on the 
International Space Station. I believe that sweeping limitations of 
this kind are a mistake. A brief review of the past is instructive for 
understanding the vital role the scientific and technical communities 
have played and can continue to play in serving as a bridge between our 
two countries, especially during times of crisis.
    With the dawn of the nuclear age and later the space age, the 
administration of President Dwight D. Eisenhower sought to avert the 
possibility of fostering an atmosphere of ``paranoid uncertainty'' 
between the United States and the Soviet Union. In 1953, in his Atoms 
for Peace speech, the president opened the way for the peaceful uses of 
the atom. As part of that proposal he initiated, with the scientific 
community, the Atoms for Peace conferences that brought countries 
together from across the globe to exchange papers on power generation, 
nuclear medicine and agriculture. These conferences, initiated first in 
1955, survived the Soviet invasion of Hungary, Sputnik, the U-2 
incident, the Cuban missile crisis--as well as the Soviet invasion of 
Czechoslovakia in 1968. As a result of that engagement, the Soviet 
Union declassified a whole field of nuclear science: fusion.
    In 1955, the International Council of Scientific Unions spearheaded 
an international effort to study the Earth. Scientists from the United 
States, the Soviet Union, and sixty-four other countries agreed that 
the International Geophysical Year would be marked in 1957-1958. Among 
its activities, it called for the Soviet Union and the United States to 
launch artificial satellites and it created a forum for international 
dialogue on science and the future of the Antarctic. This cooperation 
also survived those above mentioned crises. Despite this, the work of 
IGY continued and was augmented by U.S.-Soviet negotiations that led 
the way for the Antarctic Treaty, signed by the United States, the 
Soviet Union and ten other countries in 1959. This assured in 
perpetuity the demilitarized status of an entire continent, preserving 
the Antarctic for international scientific research--a benefit for all 
of mankind. Had this U.S.-Soviet cooperation been suddenly cut off, who 
knows what the impact would have been on Antarctica, then a contested 
continent.
    Even though the 1950s/60s are considered to be, perhaps, the most 
perilous times of the Cold War, U.S.-Russian ``engagement'' was seen as 
a way to gauge the thinking of our adversaries, to understand how the 
other side approaches issues, and to build bonds among those who were 
not their country's chief decision makers. In short: a way to mitigate 
the potential for ``paranoid uncertainty'' by achieving some level of 
transparency. At one point concern was such that there was not enough 
engagement, prompting the successful effort to sign a bilateral General 
Exchanges Agreement between the United States and the Soviet Union in 
1958. Its role was to foster and, in some cases, mandate science, 
academic and cultural exchanges. This agreement remained in force until 
the collapse of the Soviet Union.
    Space cooperation was a promising new avenue of engagement with the 
Apollo-Soyuz dock up in July 1975. But things began to change with the 
U.S. boycott of the 1980 Olympics and the suspension of other 
cooperative activities in the aftermath of the Soviet invasion of 
Afghanistan. Until the Shuttle Mir programs (1992) very few people from 
the space community were schooled in the arts of East-West cooperation. 
If not for the end of the Cold War, the U.S. and the Soviet/Russian 
programs might have been doomed to continue operating as rival 
entities.
    With this history in mind, let me explain at least three reasons 
why U.S.-Russian space cooperation should be continued without 
restriction.
First, decoupling could endanger safety.
    Much has been said about our mutual dependency in space. It is not 
just our reliance on Russian crew transport that is at issue, Russia 
also relies on the United States for communications after launch and 
for ISS operations. The Russians also have scientific instruments 
integrated into our Martian and Lunar programs.
    Even in day-to-day operations, it is logical and important to note 
that safety of human life requires international cooperation. Last 
week, NASA Associate Administrator Michael O'Brien wrote a memo to 
employees explaining the termination of many important relationships:

        ``This suspension includes NASA travel to Russia and visits by 
        Russian government representatives to NASA facilities, 
        bilateral meetings, e-mail, and teleconferences or video 
        conferences. At the present time, only operational 
        International Space Station activities have been excepted.''

    But where does work on the ISS begin and where does it end? 
Continuous improvement and enhanced work on human safety and hardware 
investment is often made through tangential contacts and interaction. 
How easy will it be to draw the line between these baskets of activity 
if there cannot be visits between our two country's facilities or even 
e-mail exchanges? This could be of major significance if there is an 
emergency in space that impacts the community beyond the operational 
side of the ISS.
Second, if the goal of suspending cooperation is designed to send a 
        strong message to President Putin, we need be careful. It could 
        backfire.
    While it is true that NASA and its Russian counterpart, Roscosmos, 
have maintained a professional, beneficial, and collegial working 
relationship through the various ups and downs of the broader U.S.-
Russia relationship, we are assuming that the ISS program will be 
unaffected by the current policy. In other words, we are presuming that 
Russian forbearance in this case is ``a given.'' In recent days, 
however, there have been cries in the Russian Duma to respond to the 
cancellation of contacts with the U.S.
    Of greatest concern to me, however, is the long-term impact. The 
Russian scientific community has traditionally been the most 
progressive of all political sectors in that country. People who are 
involved in international scientific cooperation are less likely to be 
nationalists. Rather than sending a strong message to President Putin, 
suspension of cooperation will strengthen hardliners who would prefer 
that Russia ``go it alone'' or work with countries more sympathetic to 
their views, such as China.
    From a U.S. perspective, we cannot afford to lose another 
generation of people who know how to cooperate with Russia on science 
and technology, especially with baby boomers retiring.
Finally, those who are aggressively pushing for using space as a way to 
        ``punish Russia'' should be reminded that contact with 
        countries that have such technical capabilities have, in the 
        past, been a way to enhance transparency.
    In my book, Partners in Space: U.S.-Russian Cooperation after the 
Cold War (2004), our research revealed:

        Cooperation has had a dramatically positive impact on the 
        transformation of the Soviet hardliner aerospace industry, 
        bringing unprecedented transparency and a move toward western 
        best practices. Increased transparency has reinforced both 
        expanded commercial cooperation and the political goals of 
        civil space cooperation (e.g., nonproliferation).

    Today, ``Curiosity,'' NASA's Mars Science Laboratory, has a Russian 
instrument on it that uses adapted technology from the heart of the 
Russian nuclear weapons program. This is a perfect example of how space 
cooperation has aided in providing greater transparency on the Russian 
program.
    Partners in Space also found that cooperation with Russia brought 
significant benefits, not only to our national security, but also to 
our technical knowledge--as Russians were at that time the leaders in 
long-duration space flight. Since then the lessons we have learned 
together have strengthened our overall performance in space and have 
provided an indispensable window into the workings of the Russian 
military-industrial establishment.
Conclusion
    As we know from history, it is always easier to terminate 
scientific and technical cooperation than it is to get it started 
again. Before we codify this potential mistake, we must recall that 
there are ample historical precedents to support the value of science 
and technology cooperation, even in times of crisis. Space cooperation 
should be exempt from sanctions, just as Atoms of Peace and IGY 
survived the tumultuous ups and downs of the Cold War.
    Space cooperation is the ultimate global bridge, and international 
space has unique capacities to serve the global community. It can be a 
force for preventive diplomacy, transparency and for sustaining and 
building bonds among those who are willing to put aside solely national 
pursuits. Like terrestrial cooperation, exemplified by the 
International Geophysical Year, space cooperation can serve as a 
stabilizing factor in space.
    The lynchpin of this goal must be engagement. Through consistent 
interaction, larger goals can also be realized. This can only enhance 
America's national security. We must be wary of any space policy that 
provides only short-term symbolic satisfaction, just as we should be 
cautious of those who might want to exploit this crisis for short-term 
commercial or political gain. They could, ultimately, undermine our 
long-term strategy in space and possibly jeopardize the enormous human 
and financial investment we have already made.
    On March 27, 2014, former Senator Sam Nunn and former Secretary 
George Shultz wrote in a Washington Post op-ed, ``A key to ending the 
Cold War was the Reagan administration's rejection of the concept of 
linkage, which said that bad behavior by Moscow in one sphere had to 
lead to a freeze of cooperation in all spheres.''
    I would add that linkages between geopolitical crises and space 
should be avoided in favor of more direct ways to impose sanctions. 
Space can serve as at least one example of what it really means for the 
global community to set goals and see them through for the betterment 
of mankind.

    Senator Nelson. Mr. Gerstenmaier, which policy is NASA 
operating under? You heard what Mrs. Eisenhower just said about 
the statements and there were conflicting statements. Which is 
NASA operating under?
    Mr. Gerstenmaier. NASA, as you've seen in the press 
exchanges, we've exempted ISS operations from many of the 
sanctions or any of the issues associated with activities. And 
then we're reviewing, kind of on a case-by-case basis, the need 
to go ahead and continue other activities. So there is an 
activity, a scientific event, this summer in August called 
COSPAR. That particular item has recently been accepted and 
that event will occur.
    So NASA's methodically going through each one of the events 
and activities that are scheduled and we're determining which 
ones are accepted and which ones we need to curtail.
    Senator Nelson. What about the acquisition of the engine 
RD-180?
    Mr. Gerstenmaier. That's really not a NASA issue. That's 
between United Launch Alliance and their activities.
    I'm not aware of any discussion, but that's really not a 
NASA issue per se.
    Senator Nelson. OK. Well we will get into that in the Armed 
Services Committee.
    All right. Dr. Chiao.

                 STATEMENT OF DR. LEROY CHIAO,

               FORMER NASA ASTRONAUT; COMMANDER,

           INTERNATIONAL SPACE STATION EXPEDITION 10;

             SPECIAL ADVISOR FOR HUMAN SPACEFLIGHT,

          THE SPACE FOUNDATION; AND CHAIRMAN, NATIONAL

         SPACE BIOMEDICAL RESEARCH INSTITUTE USER PANEL

    Dr. Chiao. Chairman Nelson, Senator Rubio, thank you both 
for your service to our Nation and thank you for the 
opportunity to present my views on the future of U.S. human 
spaceflight.
    U.S. human spaceflight program drives technology 
development by employing our citizens to advance the state-of-
the-art of several fields. Many of these technologies are 
adapted to purposes which improve the quality of life for 
people here on the Earth. These are both very good reasons to 
continue a robust human spaceflight program. But I believe that 
the biggest return on our investment is prestige and 
inspiration of the next generation, best put together by the 
mission statement of the Space Foundation, ``To advance space-
related endeavors to inspire, enable and propel humanity.''
    Human spaceflight has become woven into the very fabric of 
our identity as a nation of explorers, innovators and 
entrepreneurs. It was exactly the endeavors of Apollo and the 
programs prior that inspired me and my generation. We must do 
the same and more for our children and grandchildren and help 
maintain our position as the world leader.
    As you pointed out, I was a member of the 2009 Review of 
U.S. Human Spaceflight Plans Committee and the current space 
policy is based on the major elements of one of the options 
that was put together. However, the main and most important 
message of the Committee and the report was that, in any case, 
the program support needed to be robustly supported both 
politically and financially. Strong bipartisan leadership is 
needed to sustain the program across administrations otherwise 
election-cycle changes could cause confusion and waste.
    The Committee estimated back then that the 2010 NASA budget 
would have been needed to increase by $3 billion and the buying 
power of that sustained in following years, if we were going to 
have a credible Beyond-Low Earth Orbit exploration program. The 
implied message was that if we were unable to go ahead and 
increase the budget by that much, then the proper thing to do 
would have been to continue to fly space station and robustly 
support ISS.
    Unfortunately, that was not realized and NASA has been 
directed to attempt to put together a credible Beyond-Low Earth 
Orbit program within the framework of essentially a flat budget 
in terms of buying power. The challenge of this cannot be 
overstated. This is why you've seen a lot of conflicting 
proposals and different changes over the last several years 
settling now on the Asteroid Redirect Mission. But the first 
crewed flight to that asteroid is currently being planned for 
2021, which is still some years away. And that assumes that the 
SLS is developed on-time with no hiccups and no reduction and 
further reduction in budget.
    Thus, the first step, I believe, to go from here to Mars is 
to ensure that the budget is sufficient to support the program. 
The realistic sustainable funding level for Beyond-Low Earth 
Orbit maybe it should be determined a priori and then the 
program scoped accordingly. If we cannot adequately support 
both politically and financially the Beyond-Low Earth program, 
then we should not attempt it.
    The ISS is the current Low Earth Orbit human spaceflight 
program. It serves not only as a common point for the 
international partner community but as a critical part of 
development of the Beyond-Low Earth Orbit program itself. The 
most challenging aspect about flying Beyond-Low Earth Orbit is 
not a technical challenge, it's not a matter of computers or 
navigation or propulsion, but rather how do we keep astronauts 
healthy that far away from the Earth for that long of a 
duration of flights. The ISS is critical for the development 
operational medical countermeasures to ensure that we can keep 
our astronauts healthy as we contemplate these more demanding 
flights.
    The National Space Biomedical Research Institute, or NSBRI, 
was formed about 17 years ago by NASA at the recommendation of 
the National Academies. The NSBRI has built a consortium of the 
finest Biomedical Research Universities and Institutes across 
the country. And it's targeting applied research to develop 
countermeasures to enable these Beyond-Low Earth Orbit flights. 
This work maps to and adds unique value to NASA's Human 
Research Program.
    The ISS is currently scheduled for decommissioning in 2024, 
although studies have shown that it can be safely operated 
though at least 2028 and perhaps beyond. I believe that ISS's 
life should be extended to as long as practical so that we can 
go ahead and make sure that we are able to develop these 
countermeasures.
    Similarly, the NSBRI will reach its 20-year life contract 
in 2017 and I believe it also should be renewed to ensure no 
loss of continuity in these countermeasure developments.
    Commercial flights to Low Earth Orbit is a logical 
evolution. It was perhaps the most exciting yet the most 
controversial part of the new space policy but I think the 
commercial companies have made impressive strides. Already, we 
have companies delivering cargo commercially to the ISS and we 
have companies working, with NASA support, on developing the 
capability to launch astronauts to the International Space 
Station.
    In contrast to what some people think, these commercial 
efforts are not in competition with the NASA's Beyond-Low Earth 
program. They're complementary in that these commercial flights 
support the ISS which supports the Beyond-Low Earth Orbit 
program. A sustainable Beyond-Low Earth program requires a 
heavy-lift launcher. So the SLS is something that'll be 
essential, either the SLS or something like it, for our long-
term goals in Beyond-Low Earth Orbit Space.
    However, the current budget does not support a reasonable 
plan, timeline, or complement of missions. As I mentioned 
before, the first flight with a crew onboard is only planned 
for 2021. That, again, assumes that everything goes perfectly.
    It is important during the buildup of a flight test 
program, or to have a buildup of a flight test program for a 
new development, with meaningful and consistent flight rate 
during the development of something like the Beyond-LEO 
program. This is so you can develop the ground and flight 
operations and maintain team proficiency. If the national 
budget cannot be increased to support such a plan for SLS/
Orion, perhaps we need to start thinking about some other 
possibilities. If we think of SLS/Orion as Apollo/Saturn 
flights, maybe we need to take a look at possibly having 
something analogous to the Gemini program.
    The Orion is being currently built and the first flight, as 
you heard, is scheduled for later this year using an existing 
launch vehicle and upper stage. A similar configuration 
possibly could be human-rated and be used in a series of 
meaningful tests and development missions. Such a buildup 
flight test program using this configuration could be planned 
to thoroughly test Orion's systems, develop rendezvous and 
docking operations, and include first destinations Beyond-Low 
Earth Orbit. The latter flights will be used to characterize 
the flight environment beyond Earth's magnetosphere, to develop 
operations, and to characterize other issues as well; and test 
biomedical countermeasures.
    These flights would pave the way for the more ambitious 
SLS/Orion missions. SLS will enable robust Beyond-LEO missions 
which should include the development of a crew-tended base on 
the Moon. This base would be used as a test bed for hardware 
and operations to develop for eventual human spaceflights to 
the surface of Mars.
    While it would be technically possible to bypass the Moon 
on the way to Mars, I believe it would be imprudent and would 
add risk. The importance of thorough ground and buildup flight 
test to ensure program success is clear has been demonstrated 
many times and cannot be overstated.
    One of the principal findings of our 2009 committee was 
that the U.S. can lead a bold, new, international effort in the 
human exploration of space. Having common, very visible, civil 
space projects leads to generally better relationships between 
partner countries and provides the potential for overall cost 
savings. The ISS is a great example of such a program and 
future human spaceflight programs should expand on this model.
    Currently, for the last 3 years, the only entities able to 
launch humans into space are Russia and China. Thus, China is 
an obvious addition to the international human spaceflight 
partnership, both for the ISS program and beyond.
    China has successfully demonstrated rendezvous and docking 
capabilities, extravehicular activity, and operation of a crew-
tended LEO space module. The Chinese have a long-term plan that 
includes construction of a space station in 2018 with full 
operational capability by 2022. China is in a unique position 
to be a unique partner and, to the people who are concerned 
about security and technology transfer concerns, I would say 
that we can handle those things the same way we have with the 
Russians. To my knowledge, there have been no improper 
transfers in either direction.
    America can and should be the clear world leader of 
international space exploration both in LEO and beyond. What is 
needed is consistent and sustained strong, political, and 
financial commitments from the White House and the Congress. 
NASA requires the resources to create a robust, integrated, 
international exploration plan that will lead us into the next 
exciting phase of human spaceflight.
    Thank you.
    [The prepared statement of Dr. Chiao follows:]

   Prepared Statement of Leroy Chiao, Ph.D., Former NASA Astronaut; 
 Commander, International Space Station Expedition 10; Special Advisor 
 for Human Spaceflight, the Space Foundation; Chairman, National Space 
                Biomedical Research Institute User Panel
    Chairman Nelson, Ranking Member Cruz, and Members of the 
Subcommittee, thank you for your service to our nation, and thank you 
for the opportunity to present my views on the future of U.S. human 
spaceflight (HSF).
    The U.S. HSF program drives technology development by employing our 
citizens to advance the state of the art in several fields. Many of 
these technologies are adapted to purposes, which improve the quality 
of life for people on the Earth. These are very good reasons for our 
Nation to maintain a robust HSF program. But I believe the biggest 
return on our investment is national prestige, and inspiration of the 
next generation, as called out in the mission statement of the Space 
Foundation: ``To advance space-related endeavors to inspire, enable and 
propel humanity.'' HSF has become woven into the very fabric of our 
identity, as a nation of explorers, innovators and entrepreneurs. It 
was exactly the endeavors of the Apollo and prior HSF programs that 
inspired me, and my generation. We must do the same and more for our 
children and grandchildren, and to help maintain our position as the 
world leader.
    I served as a member of the 2009 Review of U.S. Human Spaceflight 
Plans Committee. The Committee addressed both Low Earth Orbit (LEO) and 
Beyond-LEO (B-LEO) exploration, and presented options to the 
administration. The current space policy is based upon major elements 
of one of the options presented in the Committee report.
    However, the main and most important message of the Committee and 
report was that in any case, the chosen HSF program must be robustly 
supported, both politically and financially. Strong, bipartisan 
leadership is needed to sustain programs across administrations. 
Otherwise, election-cycle changes cause confusion and waste. If 
credible B-LEO exploration was to be a part of the HSF program, the 
Committee estimated that the 2010 NASA budget would have needed to be 
increased by three billion dollars, and that the buying power of this 
budget would need to be sustained in follow-on years. The implied 
message was that if the budget could not be increased to this level, 
then the United States should continue to operate the Space Shuttle and 
International Space Station (ISS) and delay significant work towards a 
B-LEO program.
    Unfortunately, this has not been realized, and NASA has been 
directed to attempt to plan a credible B-LEO program within the 
framework of what has essentially been a flat budget, in terms of 
buying power. The challenge of this cannot be overstated. This is why 
we have seen changing proposals of the first destination and mission 
over the last several years, settling recently on an asteroid-redirect 
mission, with the first B-LEO astronaut flight planned for 2021. During 
that mission, the crew is to fly in formation with the redirected 
asteroid in Earth-Lunar orbit. But the plans for even these modest 
goals within the schedule allow for practically no cost overruns. This 
calls the credibility of the plan into question.
    Thus, the first step to plan ``from here to Mars'' is to ensure 
that the budget is sufficient to support the program. The realistic, 
sustainable funding level for B-LEO should be determined, and then the 
program scoped accordingly. If we cannot adequately support a credible 
B-LEO program politically and financially, then we should not attempt 
it.
    The ISS defines the current LEO HSF program. It serves not only as 
a common point for the international partner community, but also is a 
critical part of the development of the B-LEO HSF program. The most 
challenging technical aspect of the B-LEO program is biomedical: How to 
maintain the health of astronauts during long-duration flight, both 
inside and beyond the Earth's magnetosphere. Research aboard ISS is 
critical to the development of operational medical countermeasures to 
ensure astronaut health during these demanding missions. Created and 
enabled by NASA at the recommendation of the National Academies, the 
National Space Biomedical Research Institute (NSBRI) has formed a 
consortium of the finest biomedical research universities and 
institutes in the United States, and funds targeted, applied research 
to develop countermeasures to enable B-LEO flights. This work maps to, 
and adds unique value to NASA's Human Research Program (HRP). NSBRI 
also led to the creation of the Center for Space Medicine (CSM) at the 
Baylor College of Medicine. CSM complements government-funded research, 
both in space and Earth applications. ISS is currently scheduled for 
decommissioning in 2024, although studies indicate that it can be 
safely operated through at least 2028. ISS life should be extended to 
at least 2028, and beyond if practical, in order to adequately support 
the development of necessary technologies and countermeasures for the 
B-LEO HSF program. Similarly, NSBRI will reach its twenty-year contract 
life in 2017. It should be renewed, to ensure no loss of continuity in 
countermeasure development.
    Commercial flight to LEO is a logical evolution. NASA developed the 
technologies for flights to and from LEO, and should now focus on B-LEO 
goals, rather than LEO transportation. The commercial companies 
currently receiving NASA support have shown impressive progress with 
multiple cargo deliveries to the ISS, and progress towards crew 
transportation capabilities to ISS. These efforts should continue to 
receive full support, so that the U.S. can regain the capability to 
launch astronauts to ISS in the next few years. This commercial effort 
does not conflict with NASA's B-LEO exploration program. In fact, it 
helps to enable B-LEO missions, by supporting important, critical-path 
research and hardware test bed projects aboard ISS.
    A sustainable B-LEO program requires a heavy-lift launcher. The 
Space Launch System (SLS) is an essential part of the long-term 
program. However, the current budget does not support a reasonable 
plan, timeline or complement of missions. The optimistic schedule calls 
for a flight rate of only 0.75 times per year once operational, 
possibly in 2021, and only if development proceeds as planned with no 
schedule slip or decrease in budget. If the budget cannot be increased 
to accelerate this development and support a higher flight rate, then 
the U.S. should consider slowing, or delaying SLS development.
    It is important to have a build-up flight test plan with a 
meaningful and consistent flight rate during development of a B-LEO 
program. This is to develop both ground and flight operations, and to 
maintain team proficiency. If the national budget cannot be increased 
to support such a plan and flight rate for SLS/Orion missions in the 
next few years, alternatives should be considered. If one thinks of 
SLS/Orion as analogous to Apollo/Saturn flights, an appealing 
alternative is an analogy to the Gemini program.
    The Multi-Purpose Crew Vehicle (MPCV, Orion) is currently being 
built, with the first flight test (without crew) scheduled for late 
2014. The configuration for this first Exploration Flight Test (EFT-1) 
includes the use of an existing launch vehicle and upper stage. A 
similar configuration could be human rated, and be used in a series of 
meaningful test and development missions.
    Such a build-up flight test program using this configuration could 
be planned to thoroughly test Orion systems, develop rendezvous and 
docking operations, and include first destinations B-LEO. These latter 
flights would build up flight experience beyond the Earth's 
magnetosphere to develop operations, to characterize the environment, 
and to test biomedical countermeasures. These flights would pave the 
way for the more-ambitious SLS/Orion missions.
    SLS will enable robust B-LEO missions, which should include the 
development of a crew-tended base on the Moon. This base would be used 
as a test bed for hardware and operations development for eventual HSF 
flights to the Martian surface. While it would be technically possible 
to bypass the Moon on the way to Mars, I believe it would be imprudent 
and add risk. The importance of thorough ground and build-up flight 
tests to ensure program success is clear, has been demonstrated many 
times, and cannot be overstated.
    One of the principal findings of the 2009 committee was that ``The 
U.S. can lead a bold new international effort in the human exploration 
of space.'' Having common, very visible international civil projects 
generally lead to better relationships between the partner countries, 
and provides the potential for overall cost savings. The ISS program is 
an example of such a project, and future HSF programs should expand on 
this international model.
    Currently, and for nearly three years, the only entities able to 
launch humans into space are Russia and China. Thus, China is an 
obvious addition to the international HSF partnership, both for the ISS 
program and beyond. China has successfully demonstrated rendezvous and 
docking capabilities, extravehicular activity (EVA) and operation of a 
crew-tended LEO space module. The Chinese have a long-term plan that 
includes construction of a space station in 2018, with full operational 
capability by 2022. China is in a position to provide hardware and 
capability in-kind. Security and technology transfer concerns would be 
handled exactly as the U.S. does today with Russia. To my knowledge, 
there have been no improper technology transfers, in either direction.
    America can and should be the clear world leader of international 
space exploration programs, both in LEO and beyond. What is needed is 
consistent and sustained, strong political and financial commitments 
from the White House and Congress. NASA requires the resources to 
create a robust, integrated, international exploration plan that will 
lead us into the next exciting phase of HSF. It does not have it today.

    Senator Nelson. Dr. Chiao, you're not suggesting that the 
Asteroid Redirect would preclude the lunar mission?
    Dr. Chiao. No, sir. Not at all.
    In fact, if there is much to be learned from an Asteroid 
Redirect Mission and as I--to avoid any confusion--I just want 
to make clear that my statements about another program or 
subprogram would be complementary to the SLS and the Orion.
    Senator Nelson. And that was the program that you testified 
where there would be a program on the surface of the Moon.
    Dr. Chiao. Well, the Moon would be part of the SLS/Orion. 
It would be follow-on to the Asteroid Redirect Mission.
    Senator Nelson. Right. Thank you for clarifying that.
    Mr. Manber. 

 STATEMENT OF JEFFREY MANBER, MANAGING DIRECTOR, NanoRacks, LLC

    Mr. Manber. Thank you, Chairman Nelson, Senator Rubio. 
Thank you for the opportunity to speak today on behalf of 
NanoRacks; a private firm which has developed a strong customer 
base onboard the International Space Station.
    Let me start by saying that NanoRacks' business model would 
be commonplace in any industry other than human spaceflight. We 
build our own research facilities with our own money. We market 
these facilities and our services to customers at set prices. 
We began the company 4 years ago without a NASA contract. 
Instead, we negotiated access to the real estate onboard the 
station and access to the NASA launch manifest. Critical has 
been NASA's willingness to let us attempt a new way of adding 
services and facilities to the ISS.
    I applaud Mr. Gerstenmaier and the Space Station Program 
Office, led by Mike Suffredini, for allowing a private company 
to attempt this new role.
    At NanoRacks, we are very much aware that we may lose our 
money. We may fail in the marketplace to continue attracting 
customers. Our equipment may not always work. But these risks 
are not borne by the taxpayer; they're borne by our investors. 
That is how business works in the real world and it's how it 
should also work in outer space.
    How are we doing? NanoRacks has flown 150 payloads to date. 
We have 100 more in the pipeline and we are averaging just 9 
months through the NASA safety process, a tiny fraction of the 
usual timeline. Today, I can tell you that every single day, 
NanoRacks is showing that more and more consumers, teachers, 
researchers, companies around the world, see a value in paying 
for station utilization and including station in their plans.
    For us, for our customers, for the space station, and for 
the intent of you in Congress, the payoff has been dramatic. We 
estimate that today there is close to $150 million in private 
capital from venture capital firms and personal investors now 
supporting NanoRacks and our customers.
    The resulting economic valuation is estimated to be much 
higher, with significant job creation in California, Florida, 
Texas, and elsewhere. The global recognition of the power of 
American-style open markets is perhaps the single most enduring 
result of the end of the Cold War, whether in former communist 
nations, now in Low Earth Orbit and yes, I am sure, one day on 
the Moon and Mars.
    Because of the success of companies like NanoRacks 
contributing to the International Space Station, I believe the 
viability of market economics in outer space is finally coming 
of age. NanoRacks' experience is showing there is little 
difference between a government organization here or abroad and 
a non-government institution in terms of customers. To us, they 
are all customers. Our transactions are fundamentally 
commercial in nature.
    Our customer list today includes the German Space Agency 
DLR, Romanian Space Agency, parts of ESA, and companies and 
organizations from Israel, Japan, UK, Lithuania, Vietnam and 
Saudi Arabia. In short, commercial space has become a new form 
of international cooperation. And I'm really grateful for 
everyone in the NASA International Office who's allowed 
NanoRacks to begin to play this commercial role.
    NanoRacks has already shown that the divisions and tensions 
that have sometimes characterized the government versus 
commercial debate in our industry are becoming, in our view, 
outdated. For too long, we have considered space exploration as 
an either/or proposition. Either the program is government-
driven, government-operated, and government-funded, or it must 
be commercial. NanoRacks is showing, on space station, that 
such distinctions are unreasonable and even unproductive.
    The government can, therefore, play many different roles in 
human exploration. It can be a facilitator, a landlord, and 
almost always a customer. Depending on where we're going, the 
private role could be smaller or greater. Whether we're 
reaching for Mars or returning humans to the Moon, or exploring 
asteroids, a flexible partnership is where and how we should be 
heading. Turning to near-term Beyond Earth Orbit exploration, 
we are committed to using ISS as a launchpad for this new 
chapter in human spaceflight. We understand NASA's focused on 
Mars.
    At NanoRacks, we too may have Mars in our hearts but we 
have lunar in our business plans. We can see well, replicating 
ISS's new commercial environment with a lunar program, off-the-
shelf hardware, commercial economic efficiencies, low-cost 
enough for student participation, market leadership in both 
technology and market savvy. Sure we can do Mars, but that's 
going to take a little more doing and understanding in the 
commercial relationships.
    Congress has stayed the course on the International Space 
Station. Thank you for that. Your reward, our reward, is a 
stable beachhead in space, both technically and now 
commercially. I mentioned about our new relationship with NASA. 
Yes, NASA is our landlord and safety official. But the space 
agency is, every day, less and less of a competitor, leaving to 
the private sector those services that we do best.
    Thank you.
    [The prepared statement of Mr. Manber follows:]

 Prepared Statement of Jeffrey Manber, Managing Director, NanoRacks LLC
    Chairman Nelson and Senator Cruz, thank you for the opportunity to 
speak today. I'm pleased to lead NanoRacks, which is developing a 
robust customer base for the U.S. National Laboratory onboard the 
International Space Station. We regard our growing private business on 
the station as a stepping stone for commercially undertaking projects 
Beyond Low-Earth Orbit in partnership with NASA and other allied space 
exploration programs.
    Personally, I've spent the last three decades working to bring 
about a more commercial space marketplace, whether by helping set up 
the first investment fund on Wall Street for commercial space ventures, 
working with PanAmSat to break open the Intelsat monopoly on 
international communications, as well as helping open the door in 
American-Russian relations on space and later assisting in the 
marketing of the Russian space station Mir. The common thread has been 
to help realize a human space enterprise that is driven by American-
style commercial principles and practices.
    NanoRacks has for the past four years worked to realize a truly 
commercial business onboard the International Space Station, using our 
own capital and developing our own customer base. Today I'd like to 
share with you some lessons we've learned about how human spaceflight 
can be integrated into a commercial environment. In this way, everyone, 
including NASA, our international space agency partners, private 
customers and the American taxpayer can all benefit from a new approach 
to space exploration that harnesses government and commercial resources 
to achieve our goals in space.
Attempting Traditional Business in Human Spaceflight
    Let me start by saying that NanoRacks' business model would be 
commonplace in any industry other than human spaceflight. We build our 
own research hardware with our own money. We market these facilities 
and our services to customers at set prices. To date, we have purchased 
and modified for use or built microscopes, centrifuges, biopharma 
hardware and basic research platforms. All normal business. Except our 
facilities are all located in Low Earth Orbit onboard the space 
station.
    We began the company without a NASA contract (and still don't have 
a traditional one). Instead, we did negotiate access to real-estate 
onboard the space station and access to the NASA launch manifest, 
literally first to the empty nooks and crannies on cargo vehicles 
headed to ISS. We flew our first equipment with no guarantee that 
anyone, let alone NASA, would make use of our facilities. And there had 
never been a proven commercial market for space station facilities, so 
we couldn't forecast a market based on real world data. Given these 
realities, we didn't even bother with traditional investors. We say at 
NanoRacks that our first two investors were MasterCard and Visa.
    But we believed passionately that given a permanent presence in Low 
Earth Orbit, the robust transportation to and from the space station, 
and NASA's willingness to let us attempt a new way of adding services 
and facilities to ISS, that we would be successful. Rare, if ever, does 
a market fail to develop when commercial practices are allowed to 
thrive.
    Placing our own hardware aboard a government facility is a critical 
part of our success, as it allows us to use commercial practices to 
design, manufacture and sell the facilities in what is still an 
immature market. I applaud Mr. Gerstenmaier and professionals in the 
Space Station Program office, from Mike Suffredini down to the working 
level, for allowing a private company to attempt this new role. I think 
their view when we offered to build and market our own equipment with 
no NASA funding was ``let's take a shot and see if these guys can 
produce.''
    At NanoRacks, we are very much aware that we may lose our money. We 
may fail in the marketplace to continue attracting customers. Our 
equipment may not always work. But these risks are not borne by the 
taxpayer but by our investors. That is how business works in the real 
world and should also work in outer space.
A Pioneering and Growing Success
    So how are we doing? NanoRacks has flown 150 payloads to date, we 
have a hundred more in the pipeline, and are averaging just nine months 
through the NASA safety and payload integration process, a tiny 
fraction of the usual wait. Our prices are transparent and start low 
enough to allow parents in school districts to pool their money to fund 
a genuine space station project, and our facilities robust enough to 
attract serous academic and industrial researchers. All without NASA 
funding. When we do receive Federal dollars its because NASA or another 
agency is buying our services just like any other customer.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    And today, I can tell you that every single day NanoRacks is 
showing that more and more consumers, teachers, researchers, companies 
and organizations around the world see a value in paying for station 
utilization.
    A final thought on the LEO market today. Just as NanoRacks has 
customers that are commercial organizations as well as space agencies, 
it also has space agencies that are competitors. One prime example is 
the Chinese Space Agency, which is today marketing its space station 
services to the international community, including my customers. One 
international client was just about ready to ``jump ship'' to work with 
China on a multi-year program. What stopped this client was the U.S. 
commitment to operate the ISS until at least 2024.
    But the Chinese space station program is already today a formidable 
competitor for NanoRacks, and we are committed to assuring prices low-
enough, and services good enough, to thwart their efforts, not because 
they are Chinese but because that is the nature of commercial 
competition.
    NanoRacks' progress in attracting customers and helping build up 
the capabilities of space station is being noticed. For example, 
Aviation Week recently described the growing commercial utilization of 
the ISS as transforming the station from a marvel of engineering 
construction into a thriving entrepreneurial marketplace. Music to my 
ears.
    I would not argue that a purely commercial approach should be the 
only path to ISS utilization. There is always the more traditional, 
public sector approach, using taxpayer funds, via NASA or CASIS. 
Typically this involves peer review, with the highest priority given to 
projects of agreed-on national priority. Our way allows a researcher or 
entrepreneur who believes in their idea to avoid waiting and try an 
experiment as quickly as they can develop their hardware.
    For us, for our customers, for the space station and for the intent 
of Congress, the payoff has been dramatic: we estimate that today there 
is close to $150 million in private capital, from venture capital firms 
and personal investors, now supporting NanoRacks and our customers. The 
resulting economic valuation is estimated to be much higher, with 
significant job creation in California, Florida, Texas and elsewhere. 
If you add to this the private investment in commercial cargo vehicles 
from SpaceX and Orbital, and resulting value of their future launch 
markets, and the economic value of the International Space Station 
ecosystem already totals several billion dollars.
    By creating and realizing commercial value in human spaceflight I 
believe we are dramatically increasing spaceflight's economic return to 
our Nation and the world overall. And I am sure that our success in 
using private capital to leverage government space efforts is 
transferable not only to other human space stations in Earth orbit but 
beyond Earth orbit as well.
    The global recognition of the power of American-style open markets 
is perhaps the single most enduring result of the end of the Cold War, 
whether in former Communist nations, now in Low Earth Orbit and yes, I 
am sure, one day on the Moon and Mars. Because of the success of 
companies like NanoRacks working on the International Space Station, I 
believe the viability of market economics in outer space is finally 
coming of age.
The Synergy of Commercial and International Cooperation
    NanoRacks' experience is showing that there is little difference 
between a government organization here or abroad and a non-governmental 
institution. To us they are all customers, and our transactions are 
fundamentally commercial in nature: a voluntary exchange of reciprocal 
value. Whether it's a U.S. Government R&D agency like DARPA or a 
privately funded research foundation or a startup company in Silicon 
Valley or a school in Colorado, our relationship is based on the 
commercial contract. Just like in any business on the ground that books 
a government customer for a plane ticket or purchasing software.
    NanoRacks has already shown that the divisions and tensions that 
have sometimes characterized the government vs commercial debate in our 
industry are becoming outdated. Working together, we can assure human 
spaceflight operations are undertaken in a commercially efficient 
manner and reach out to the widest customer base possible, both 
domestically and internationally, while accepting that much of the 
space utilization market still requires some public support, especially 
the first time we seek to go to Mars, or undertake an asteroid mission 
or permanently colonize the Moon.
    Our low costs, state of the art facilities, and speedy commercial 
practices are just as appreciated by our international government 
customers as by our private domestic ones. The internationals 
appreciate our ``business as usual'' approach, or as we say: ``no 
flags, just results.''
    I have no doubt that the next chapter in space exploration must 
involve a wide range of contributions from international partners, just 
as any large commercial enterprise already does, from the automobile to 
telecommunications sectors. On the space station, we have learned 
without a doubt that other nations have no hesitation to work with a 
U.S. company like NanoRacks for access to the International Space 
Station. Our current customer list includes the German Space Agency 
DLR, the Romanian Space Agency, parts of ESA, and companies and 
institutions from Israel, Japan, UK, Ireland, Peru, Lithuania, Vietnam 
and Saudi Arabia. In short, commercial space is another powerful form 
of international cooperation, and we appreciate NASA's flexibility to 
allow this new form of space diplomacy to flourish.
    Allow me to add another valuable lesson we are learning from ISS 
operations. And this is the value of the InterGovernmental Agreement 
(IGA) which is the legal and regulatory framework for managing space 
station operations among the ISS partners. This document, in my view, 
provides a solid legal foundation for future international exploration 
programs. There are certainly improvements to be made as we proceed 
outward from Earth orbit, but the basic framework and principles of the 
IGA have withstood many challenges over the past three decades and are 
extremely sound.
    Our commercial utilization of ISS is changing not just the 
perception of commercial markets in Low-Earth Orbit, but the very 
behavior of NASA and the other ISS agencies. Skepticism and 
confrontation towards working side by side with a commercial company's 
self funded hardware and services has given way to commercial 
cooperation and shared resources.
    To cite just one example, earlier this year we sought permission 
from NASA to replace the Japanese Space Agency (JAXA) small satellite 
deployers with our own, which are larger. We didn't ask NASA for 
funding. We were willing to take the risk that we could find customers 
if the deployers could hold bigger and more satellites. And we offered 
slots for NASA use at no cost.
    The result? In just seven months we designed the hardware, had it 
manufactured, passed the NASA and JAXA safety gauntlet, launched it on 
an Orbital Sciences Cygnus vehicle. With our space agency colleagues we 
just deployed 33 CubeSats, providing market leadership for three 
American companies and also introducing two nations, Peru and 
Lithuania, to the space station. All with no taxpayer funding in that 
project.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We saw an opportunity for using space station as a small satellite 
deployer and have invested in the necessary hardware and are finding 
the customers. Not only is there strong commercial demand for this 
service but government agencies are now taking advantage of the no-cost 
slots. That is a win-win for everyone.
A Model for Beyond Earth Exploration
    For too long we have considered space exploration as an ``either-
or'' proposition. Either the program is government driven, government 
operated and government funded, or the program is commercial. NanoRacks 
has shown on space station that such distinctions are unreasonable and 
even unproductive. One can well envision a Mars mission which is driven 
by the space agencies, with basic infrastructure provided by agency 
funding. The private sector would be invited to risk capital and 
develop supporting facilities and capabilities which we would then 
market to space agencies, scientific organizations, and consumers.
    The Government can therefore play many different roles in human 
exploration. It would usually be a facilitator, frequently a landlord, 
and almost always a customer. Depending on where we are going, the 
private role could be smaller or greater.
    Whether we're reaching for Mars, returning humans to the Moon, 
exploring Asteroids, or conducting science or business on commercial 
platforms of the future, a flexible partnership is where and how we 
should be heading.
    Turning to near-term beyond-earth-orbit (BEO) exploration, 
NanoRacks is committed to using ISS as launch pad for this new chapter 
in human spaceflight.
    We understand NASA is ultimately focused on Mars. At NanoRacks, we 
too may have Mars in our hearts but our business plan already includes 
cis-lunar and lunar. We see a commercial market possible with the U.S. 
Government as customer, modeled on the relationship we have developed 
aboard space station. Other governments could also be commercial 
customers--or if they want to be political partners, that is fine. But 
commerce must be allowed to flow among the partners.
    We can well see replicating ISS' new commercial environment with a 
lunar program. Off the shelf hardware. Commercial economic 
efficiencies. Low cost enough for student participation. American 
leadership in both technology and market savvy.
    For me, the key message here is that ISS is not just a science and 
technology laboratory, but a powerful management and policy testbed for 
how the government and private sectors can undertake space exploration 
together.
    And the Moon is not the only possible example. NASA could reach an 
overarching agreement with ESA on a Congressionally funded, 
administration approved, asteroid rendezvous program, for example, but 
DLR and other individual national space agencies in Europe might be 
pleased to go even further, working commercially with a company like 
NanoRacks for use of privately-funded exploration hardware for research 
and utilization aboard the visiting spacecraft. At NanoRacks, we would 
be willing to self-fund a range of research hardware and services in 
conjunction with such a mission if we were allowed to market 
commercially to the user community. As on the space station today, 
everyone gains. Less government funding and more commercial practices 
that meet customer expectations, whether the customer is a research 
organization or a space agency.
Conclusion
    In conclusion, Congress has stayed the course on the International 
Space Station. Your reward, our reward, is a stable beachhead in space, 
both technically and now commercially. The space station is showing us 
that incorporating commercial utilization into exploration programs 
will indeed have huge benefits.
    And, as on the space station today, U.S. Government strategy should 
include a way to foster an ecosystem of commercial capabilities that 
government needs--or very often, the government doesn't know it needs. 
But given the freedom to operate, commercial will help lower the costs 
and increase the benefits to government and industry alike of an 
exploration program.
    Finally, I mentioned about our new relationship with NASA. Yes, 
NASA is our landlord and safety official. But the space agency is every 
day less and less of a competitor, leaving to the private sector those 
services we do best.
    Taken together, the ISS has emerged as a true laboratory for 
assuring that our future exploration efforts, like those now on space 
station, reflect the best values of American leadership and market 
ingenuity.
    Thank you.
                                 ______
                                 
     Bio of Jeffrey Manber, Chief Executive Officer, NanoRacks, LLC
    Jeff Manber brings together three decades of experience in 
realizing a more robust commercial space marketplace.
    Currently, as Managing Director of NanoRacks from 2009 onwards, 
Manber has steered the growth of the first company to own and market 
its own hardware and services onboard the International Space Station. 
NanoRacks enjoys a customer pipeline of over 100 payloads from both 
domestic organizations and foreign governments, has flown over 150 
payloads in the last two years and is a recognized leader in commercial 
space services from sub-orbital to low-earth orbit and beyond.
    Previous to NanoRacks, Jeff's accomplishments include:

  <bullet> adviser to the chairman of PanAmSat, the first privately 
        owned international satellite venture that ended the Intelsat 
        monopoly on international satellite communications and enjoyed 
        a billion dollar IPO;

  <bullet> co-developer of the first Wall Street fund dedicated solely 
        to commercial space (Shearson Lehman);

  <bullet> helping create the Office of Space Commerce at U.S. 
        Department of Commerce in the Reagan administration;

  <bullet> Managing Director of the American office for the Russian 
        space company RKK Energia. Jeff facilitated the current 
        cooperation between the Russian and American space programs. 
        Participant in formation of Energia-Lockheed (ILS), Energia-
        Boeing (Sea Launch) and other key U.S.-Russian space ventures;

  <bullet> CEO of MirCorp. While leading MirCorp, Manber signed media 
        and entertainment deals with space tourist Dennis Tito, 
        Survivor television producer Mark Burnett and movie producer 
        James Cameron;

    The author of numerous articles and several books, including 
``Selling Peace,'' which chronicles Jeff's time working with the 
Russian space program. Jeff was also the recipient of the American 
Astronautical Society's 2011 Lloyd V. Berkner Award and NASA's 
Exceptional Achievement Medal in 2012.
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

    Senator Nelson. Mr. Manber, you remember, it was not too 
long ago, that the space station was supposed to cease to exist 
in 2015.
    Mr. Manber. Yes, indeed.
    Senator Nelson. And that was extended to 2020. Now, 
fortunately, the President's budget has recommended that it be 
extended to 2024. From this Senator's standpoint, that's the 
least we could do. It seems to me, it ought to go to the end of 
the decade. A $100 billion investment, with all the things that 
you have just testified, clearly is worth continuing.
    Mr. Gerstenmaier, sequester is part of the budget for the 
next 8 years unless we can change it. And there are some of us 
in bipartisan discussions right now that are trying to change 
that. But limited funding is a reality over the course of the 
next several years. So would you make the case for the record 
of why the Asteroid Redirect Mission is doable, number one? 
Number two, does not preclude a lunar mission. And number 
three, develops the technologies and procedures that ultimately 
get us to the goal of Mars in the decade of the 2030s?
    Senator Rubio, my question was for Mr. Gerstenmaier to make 
the case: with limited funding, which is a reality over the 
course of the next several years, for Mr. Gerstenmaier--who is 
the best of the best at NASA--to make the case of why the 
Asteroid Redirect Mission, number one, develops the procedures 
and the technologies ultimately going out to the goal in the 
2030s of Mars. And, number two, does not preclude a lunar 
mission as many people have spoken, it's like it's either/or. 
And doing that within the context of limited budgets.
    Go ahead, Mr. Gerstenmaier.
    Mr. Gerstenmaier. Again, if I try to go back to a little of 
what's in my testimony, the way I would describe it is, if we 
look at any other real activity, it's going to require a 
significant amount of new investment on NASA's part. So if we 
try to go to an asteroid in some distant location away from the 
Moon, we need to build some kind of habitation module to 
augment Orion; we need to do significant medical research to 
keep our crews healthy during that period of timeframe; we have 
to do significant life support development. So that's a lot of 
new development to go do an activity there.
    It has been talked about, you know, Mars fly by missions. 
The same kind of thing. If you look at the amount of investment 
that needs to occur to make that a reasonable mission to keep 
the risk down to appropriate levels, a tremendous amount of 
investment.
    So the Asteroid Redirect Mission, it moves essentially a 
piece of the solar system to a location around the Moon, which 
we can get to with Orion and SLS the way they're being designed 
today. So the first test flight of Orion, EM2, scheduled in 
Fiscal Year 2021 to 22, that mission with crew can go to the 
Moon and that vicinity with really no changes. The Asteroid 
Redirect Mission doesn't require any changes to the Orion 
capsule. Basically, we can do the spacewalk from the Orion 
capsule the way it's designed. So there's no unique hardware 
needed in that aspect.
    It also puts us in the vicinity of the Moon, which we think 
is a great proving ground to go understand how to operate in 
space. You know, we'll now be 5 days away from an immediate 
return back to the Earth. On station, we can get back in a 
couple hours. But in the Moon environment, we're going to be 
roughly 5 days away. We'll use lunar gravity assist, which will 
be an important technique to learn how to operate for missions 
to Mars and other locations.
    Also, being in the vicinity of the Moon and lunar orbit, it 
enables, if our partners want to do something on the surface of 
the Moon or commercial activities want to do things on the 
Moon, we can assist them in those activities with Orion. So it 
effectively uses exactly what's there for SLS and Orion.
    It also took advantage of what the Science Mission 
Directorate was already doing. They already had an asteroid 
observation campaign. So we did not have to build a unique 
asteroid observation campaign. We leveraged off of what they 
were doing already.
    The Space Technology Mission Directorate, it was building a 
solar electric bus to be demonstrated to look at electric 
propulsion which will be needed for Mars-class missions. We'll 
leverage off of their work that they are doing and it uses SLS 
and Orion.
    So it essentially uses all the pieces we had put together 
and allows us to make signification and real progress toward 
gaining the capabilities to go to Mars and it also enables the 
Moon. So when you put all of those together for the modest 
investment, I think it makes sense moving forward.
    And last, the bus that we used to actually go capture this 
asteroid and redirect it around the Moon, that same electric 
bus would be used for cargo missions to Mars. So that is 
extensible going forward.
    So when I look at the options in front of us, I look at the 
budget environment that you've described; the uncertainty. This 
is the way we can make significant progress moving forward that 
keeps us focused toward Mars but doesn't preclude the Moon but 
yet it keeps us moving in a positive direction and helps us 
work with our international partners and stay a leader in 
space.
    Senator Nelson. Just to close this out and it is affordable 
within that time-frame over the course of the next five to 10 
years of which, if we went directly on a mission to go back to 
the Moon's surface, you're talking about a lot more money. Is 
that correct?
    Mr. Gerstenmaier. Yes. The difference would be to go back 
to the surface of the Moon with a human-class mission. We would 
have to build a human lander to go to the Moon. We don't see 
that as necessary for Mars.
    You know, to enter into the Martian atmosphere with its 
atmosphere is much more difficult. To do entry, decent, and 
landing into Mars requires new technology development. We think 
that's where our focus ought to be for the next big lander. We 
ought to be looking at how we land a crew-size capability on 
Mars and not go back and replicate to some extent what we've 
already done on the Moon for Moon landing.
    But now, if a commercial company would like to do that or 
an international partner would like to do that, we will be 
capable with Orion to be in cis-lunar space and we can assist 
them with those activities.
    So we don't preclude that activity but, in this limited 
environment, we want to invest in the technologies that have 
not been done and the things that will help us and keep us a 
leader and keep us moving forward toward ultimately Mars-class 
missions.
    Senator Nelson. But you said, ``But we don't preclude that 
activity.''
    So if the geopolitics suddenly changed, that it was 
important to the United States to get back to the surface of 
the Moon before, say, the Chinese would with humans, if that 
were the case, we'd already have a lot of the technologies 
developed and we'd be sitting out there close to the Moon 
already. Is that correct?
    Mr. Gerstenmaier. Yes. That's correct.
    And I would say that, if you look today, countries talk 
about building an Orion-class capsule that could go to the 
vicinity of the Moon. There's no country doing that today other 
than us. And this vehicle, you can go down to Florida and you 
can see today it's getting ready for the test flight this fall, 
that is the basic capsule shape that is mostly the avionics it 
will fly, it's mostly the software that's there. So we are 
again, being a leader and we are building a capsule that allows 
us to take humans Beyond-Low Earth Orbit to the vicinity of the 
Moon.
    The SLS is also another rocket that other countries talk 
about. They've conceptualized that. They're not putting 
hardware together. You can go to New Orleans and you can 
actually see barrel sections of the oxygen and hydrogen tanks, 
actually manufactured as test articles. You can see this large 
welding equipment; the largest in the world. It will use state-
of-the-art reaction friction stir weld to assemble tanks. We're 
moving forward. We're at the Marshal Space Flight Center today 
doing acoustic tests of scale model rockets firing solid rocket 
motors next to the model to go look at launch activities down 
in Florida. We're modifying Pad 39B to accommodate the new 
launcher capability.
    So this country again is leading and we are making real 
investments and real hardware that you can go out, see, visit, 
touch, and they all fit in this ability to get humans Beyond-
Low Earth Orbit, which other countries talk about but we are 
still the leader in doing that and our activities will enable 
and we'll be able to cooperate with them and their activities 
as they move forward.
    And the global exploration roadmap shows their desires, 
what they would like to go do. It also shows where we fit and 
then this allows each country to kind of decide for themselves 
what their role is in in human spaceflight and how they want to 
fit and build hardware. But we are the leader with the SLS and 
Orion that we're building today.
    Senator Nelson. As I turn to Senator Rubio, would you 
describe one of the activities of a rover on the surface that 
could be controlled from Orion with Orion being in cislunar 
space?
    Mr. Gerstenmaier. We see the ability of getting into the 
vicinity around the Moon, either a Lagrangian point, which is a 
gravity location around the Moon, or in a distant retrograde 
orbit. We can use crew members in Orion to actually command a 
robotic space craft or robotic rover on the surface of the Moon 
and do activities.
    There's a lot of interest on the far side of the Moon. 
There's some discussion that's occurred about putting a radio 
telescope on the far side of the Moon where it's shielded from 
the radio interference from the Earth. You could actually 
deploy that antenna on the far side of the Moon from an 
orbiting space craft from Orion orbiting the Moon and actually 
do those kinds of operations on the surface of the Moon.
    And we did a demonstration of that from space station. We 
actually used space station to drive a rover in California that 
deployed essentially a plastic antenna on a simulated lunar 
field in California to go actually see if we could go do that. 
So, when we get to this vicinity of the Moon, we can do robotic 
activities on the surface of the Moon from Orion as a temporary 
space craft in a roughly five to six day orbit around the Moon.
    Senator Nelson. Thank you very much.
    Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you. Thank you, Chairman, for holding 
this hearing and all of you for being here.
    Let me just start by segueing from that last question that 
was asked. To be clear, as we talk about this long-term goal of 
landing on Mars in 2030, I think what you're describing is that 
all the things that we are doing now in the interim all build 
upon each other. In essence we're creating capability along the 
way. These are not separate programs though they have separate 
aims and segues. The general path, as it is with all space 
exploration, is that previous missions create technological 
platforms upon which we can build in the future. That they're 
all moving, ultimately, in the same direction. So we're not 
really duplicating efforts here, we're kind of constructing one 
on top of the other. Is that an accurate assessment?
    Mr. Gerstenmaier. I think that's accurate. And I think the 
other thing we need to take advantage of with this group here 
is that there's also significant advantage we can get from 
international partners in this activity and also from the 
commercial sector. So we need to change our thinking a little 
bit where it used to be an only government program and look at 
creative ways we can use the commercial sector and use the 
international community to augment what we're doing.
    Senator Rubio. Well, that's what I wanted to segue to. 
Before--and I've already cleared this with the Chairman. I want 
to submit a statement for the record by Mr. Dean Cheng, who's a 
Senior Research Fellow at the Heritage Foundation. He is an 
expert in our relations with China regarding space matters. 
He's unable to participate in today's hearing but he has 
submitted his testimony and he brings forward some interesting 
perspectives on the issues we'll discuss today.
    [The prepared statement of Mr. Cheng follows:]

       Prepared Statement of Dean Cheng, Senior Research Fellow, 
                        The Heritage Foundation

               Prospects for U.S.-China Space Cooperation

    My name is Dean Cheng. I am the Senior Research Fellow for Chinese 
political and security affairs at The Heritage Foundation. The views I 
express in this testimony are my own, and should not be construed as 
representing any official position of The Heritage Foundation.
    My comments today pertain to prospects for cooperation with the 
People's Republic of China (PRC) in outer space. While the United 
States should not avoid cooperation with any country out of fear, at 
the same time, it is vital that cooperation occur with full 
understanding and awareness of whom we are cooperating with, and that 
such cooperation serve American interests.
    In the case of the PRC, the combination of an opaque Chinese space 
management structure, a heavy military role in what has been observed, 
and an asymmetric set of capabilities and interests raise fundamental 
questions about the potential benefits from cooperation between the two 
countries in this vital arena.
    To this end, it is essential to recognize a few key characteristics 
of China's space program.
    First, that China possesses a significant space capability in its 
own right, and therefore is not necessarily in need of cooperation with 
the United States. Too often, there is an assumption that the PRC is 
still in the early stages of space development, and that we are doing 
them a favor by cooperating with them.
    Second, that the Chinese space program is closely tied to the 
Chinese People's Liberation Army (PLA), their military. Therefore, any 
cooperation with the PRC in terms of space must mean interacting, at 
some level, with the PLA.
    Third, that the Chinese space program has enjoyed high-level 
political support, is a source of national pride, and is therefore not 
likely to be easily swayed or influenced by the United States, or any 
other foreign actor.
    These three issues, in combination, suggest that any effort at 
cooperation between the United States and the PRC will confront serious 
obstacles, and entail significant risks.
A Brief Overview of China's Space Program
    The PRC is a major space power, by which we mean that the PRC has 
the range of space-related capabilities to be able to access and 
exploit space for its own purposes, at times and places of its own 
choosing. Indeed, the PRC has a range of space capabilities that 
arguably equal or exceed those of Europe, and places it ahead of every 
other Asian country.
    China possesses three space launch facilities (Jiuquan, Taiyuan, 
and Xichang), and is building a fourth on Hainan Island, in the 
southernmost province of China. From their current launch facilities, 
they can place satellites into low, middle, and geosynchronous orbit, 
relying entirely on the Chinese-manufactured Long March family of 
launch vehicles. It is expected that China will be launching the new 
Long March 5 heavy lift vehicle from the new Hainan facility.
    Satellites. China fields a significant array of satellites.

  <bullet> It has a communications satellite array that includes both 
        domestically produced and foreign satellites, including at 
        least two military communications satellite constellations: the 
        Shentong and Fenghuo systems.

  <bullet> It is only the third country to field a satellite navigation 
        and positioning system, the Beidou/Compass system. The Beidou 
        system was first orbited in 2000, with several satellites in 
        geostationary orbit. This was an active system which required 
        the user to transmit a signal to help determine the user's 
        location. This active signal also provided a communications 
        channel, which could handle messages of up to 140 characters. 
        The Compass portion (sometimes referred to as Beidou-2) is 
        comprised of 35 mid-earth orbit satellites. The Compass portion 
        is currently being deployed and is in regional service.

  <bullet> It has a weather satellite constellation that includes both 
        sun-synchronous and geosynchronous meteorological satellites 
        (the Fengyun series). There has been discussion in the United 
        States of relying on China for weather satellite data, due to 
        repeated delays in replacing American meteorological 
        satellites. The Chinese 2007 ASAT test involved a defunct FY-1C 
        weather satellite in Low Earth Orbit.

  <bullet> It fields a number of earth observation and reconnaissance 
        satellites. The Ziyuan series was the first Chinese observation 
        satellite to be able to beam their data to Earth. It is the 
        product of a joint development effort between the PRC and 
        Brazil (in the form of the China-Brazil Earth Resources 
        Satellite, or CBERS).

  <bullet> China has also fielded a large array of small satellites, 
        including the ``Practice,'' ``Experiment,'' ``Gaofen,'' and 
        ``Innovation'' series. These have carried a variety of 
        payloads, including synthetic aperture radars (SAR), electro-
        optical imaging equipment, and monitoring equipment believed to 
        support military intelligence requirements. A Chinese small 
        satellite, believed to be from the ``Experiment'' series, was 
        recently launched with a robotic arm. Previously in 2010, two 
        ``Practice'' satellites deliberately ``bumped'' each other in 
        orbit.

    Manned Space Program. China has an active manned mission program 
that involves the Shenzhou manned spacecraft, which has now had ten 
successful flights (five manned, five unmanned), and the Tiangong space 
lab. With the completion of the 2013 Shenzhou-X mission, China has also 
successfully demonstrated docking capabilities between the Shenzhou and 
Tiangong spacecraft, as well as relatively extended duration missions. 
(Shenzhou-X lasted 15 days.)
    To support the manned program, China established its first overseas 
bases with mission support facilities in Swakopmund, Namibia, and 
Kiribati in the South Pacific. Chinese documents have indicated that a 
space station, perhaps in the 60-80 ton range (smaller than the U.S. 
Skylab) is expected to be deployed by 2020.
    Lunar Exploration Program. The Chinese lunar exploration program 
has launched two lunar orbiters (Chang'e-1 and -2), as well as a lunar 
rover (the Jade Rabbit on Chang'e-3) since 2007. The lunar rover has 
exhibited erratic performance, but is still considered fairly 
successful. The final part of the Chang'e program is expected to be a 
lunar sample retrieval mission in the 2017-2018 time frame.
    At this point in time, there is no official indication of plans for 
a manned mission to the moon. In the 2011 Chinese white paper on space, 
it was indicated that initial studies were now underway to explore the 
requirements for such a mission.
    Supporting these various space efforts is a major space industrial 
complex mainly comprising two state-owned enterprises (SOEs): the China 
Aerospace Science and Technology Corporation (CASC) and the China 
Aerospace Science and Industry Corporation (CASIC). Each of these SOEs 
is believed to employ over 100,000 people and is dedicated to producing 
aerospace and missile-related systems. Thus, unlike their American 
counterparts (e.g., Boeing and Lockheed-Martin), these companies do not 
manufacture aircraft or helicopters. On the other hand, not only do 
they produce rockets and satellites, but also ground test equipment and 
specialized vehicles associated with space launch, etc. In this regard, 
they somewhat resemble large, vertically integrated corporations.
    The two SOEs are also responsible for manufacturing missiles for 
China's Second Artillery, the equivalent of the Soviet Union's 
Strategic Rocket Forces, as well as tactical missile systems for the 
PLA as a whole. Thus, subordinate research academies within the CASC 
manufacture not only the Long March space launch vehicle, but also the 
DF-21 medium-range ballistic missile (MRBM), which comes in an anti-
carrier variant (the DF-21D) and serves as the launch vehicle for the 
Chinese anti-satellite system (the SC-19).\1\
---------------------------------------------------------------------------
    \1\ Sean O'Connor, ``PLA Ballistic Missiles,'' Air Power Australia, 
APA-TR-2010-0802, April 2012, http://www.ausairpower.net/APA-PLA-
Ballistic-Missiles.html#mozTocId274945 (accessed April 7, 2014).
---------------------------------------------------------------------------
The PLA and China's Space Program
    The close links between the Chinese military and space are not 
restricted to the Chinese military and space industrial complexes. The 
PLA has consistently played a key role in the Chinese space effort, and 
China's space program is closely identified with the military. Indeed, 
the Chinese space program dates its creation to October 8, 1956, with 
the establishment of the Fifth Academy of the Ministry of Defense by 
Dr. Qian Xuesen.
    Since then, the Chinese military has played an essential role in 
the management of various Chinese space programs. This is reflected 
today in the continuing role of the General Armaments Department (GAD) 
in Chinese space affairs. The GAD is one of the four General 
Departments of the PLA (along with the General Staff Department, 
General Political Department, and General Armaments Department) that 
form the core of the Central Military Commission (CMC). It is the CMC 
that actually manages the military. The Ministry of Defense, by 
contrast, has little authority, compared with the two uniformed vice 
chairmen of the CMC.
    All of China's space launch facilities, mission control facilities, 
and tracking, telemetry, and control (TT&C) facilities, including its 
fleet of space tracking ships, are all subsumed within the GAD. Indeed, 
the facilities are typically referred to by their base number in 
Chinese literature: Taiyuan Satellite Launch Center is Base 25, while 
the Xichang Satellite Launch Center is Base 27. Not surprisingly, the 
various facilities and ships are all staffed by units of the GAD. The 
personnel are trained at the Academy of Command Equipment and 
Technology, which is a subsidiary organization of the GAD.\2\
---------------------------------------------------------------------------
    \2\ ``2007 Researcher Application Form,'' Academy of Equipment 
Command and Technology, China, http://yz.chsi.com.cn/adv/zbxuyjs.htm 
(accessed April 7, 2014).
---------------------------------------------------------------------------
    In addition, China's manned space program is managed through the 
GAD. The website of the China Manned Space Engineering Office (CMSEO) 
lists the chief commander of the program as Zhang Youxia. General Zhang 
Youxia was appointed director of the GAD in October 2012.\3\ Another 
deputy chief commander (apparently the senior deputy) of the program is 
Major General Niu Hongguang, one of the deputy directors of the PLA 
General Armaments Department. Other deputy chief commanders are drawn 
from the military and space industrial complex, reflecting the 
integrated nature of this key industrial sector.
---------------------------------------------------------------------------
    \3\ ``Management,'' China Manned Space Engineering, http://
en.cmse.gov.cn/list.php?catid=40 (accessed April 7, 2014).
---------------------------------------------------------------------------
    Indeed, it is useful to recall that the U.S. prohibitions currently 
limiting the ability of the PRC to launch any satellites containing 
American parts, under the International Trafficking in Arms Regulations 
(ITAR), were put in place due to the transfer of aerospace-related 
information to Chinese companies in the 1990s. As the Cox Commission 
report noted, information that was given to China regarding items such 
as the fairing on the Long March-2E space launch vehicle led to 
improvements for Chinese ballistic missile programs. In particular, it 
led to changes in both rocket design and Chinese operations that 
improved the reliability of all Chinese rocket launches.\4\
---------------------------------------------------------------------------
    \4\ Select Committee on U.S. National Security and Military/
Commercial Concerns with the People's Republic of China, The Cox Report 
(Washington, D.C.: Regnery Publishing, 1999), pp. 220 and 221-222.
---------------------------------------------------------------------------
    Meanwhile, China's satellite programs are often linked to military, 
as well as civilian, users. Like the United States, for example, 
China's satellite navigation system (Beidou) is linked to the 
military--specifically, the General Staff Department Satellite 
Navigation Station.\5\ There is even a website celebrating this 
organization's achievements.\6\ Military officers from key GSD 
departments apparently were part of the design effort for the Chinese 
weather satellite system. Military participation in space efforts is 
hardly unique to the PRC, but should serve as a reminder that any 
interaction with the Chinese space program will almost certainly mean a 
PLA role and presence.
---------------------------------------------------------------------------
    \5\ ``A Record of the General Staff Department Satellite Navigation 
Station's Commitment to the Beidou Navigation System,'' Xinhua, 
November 9, 2013, http://www.gov.cn/jrzg/2013-11/09/content_2524730.htm 
(accessed April 7, 2014).
    \6\ ``The Stars in the Sky Join Beidou,'' http://
military.people.com.cn/GB/8221/71065/370766/ (accessed April 7, 2014).
---------------------------------------------------------------------------
    More to the point, there is no obvious civilian counterpart to the 
PLA in terms of China's space efforts. The most regularly mentioned 
equivalent to NASA is the Chinese National Space Administration (CNSA). 
But the head of CNSA is typically described in Chinese writings and 
press coverage first as a vice minister of the Ministry of Industry and 
Information Technology (MIIT), then as a deputy director of the State 
Administration of Science, Technology, and Industry for National 
Defense (SASTIND), before being mentioned as the head of the CNSA. This 
suggests that the position of the CNSA is a third-tier bureaucracy, 
standing below the key super-ministry for advanced technologies, and 
the managing authority for China's military industries (SASTIND).
    By contrast, the PLA is a key part of the Chinese power structure. 
One of the key positions for the top Chinese leader (Xi Jinping, Hu 
Jintao, Jiang Zemin) is the chairmanship of the Central Military 
Commission. That role, along with being General Secretary of the 
Chinese Communist Party (CCP), is what vests Xi, Hu, and Jiang with 
their power--head of the Party and head of the military. In short, 
bureaucratically the CNSA is dwarfed by the Chinese military (which may 
explain the CNSA's absence from the top echelon of Chinese manned space 
management).
The Importance of Space to the Chinese Leadership
    As early as 1958, months after Sputnik was placed into orbit, 
Chinese leaders saw the development of space capabilities as reflecting 
on China's place in the international order. In May 1958, Chairman Mao 
Zedong advocated the creation of a Chinese space program, declaring at 
the Second Plenum of the Eighth Party Congress, ``We should also 
manufacture satellites.'' \7\ This high-level support has varied at 
times, but space has generally been seen as contributing to 
``comprehensive national power'' by facilitating national economic 
development, strengthening military modernization, and supporting the 
legitimacy of the CCP. It is therefore not surprising that senior 
Chinese leaders have made sure that they are present for key events 
such as the inauguration of satellite communications in the 1970s, or 
the launch of China's first manned spacecraft, the Shenzhou-V.
---------------------------------------------------------------------------
    \7\ Deng Liqun, ed., China Today: Defense Science and Technology, 
Vol. I (Beijing: National Defence Industry Press, 1993), p. 356.
---------------------------------------------------------------------------
    For China, its space program is emblematic of its steady 
advancement since 1949, especially since most of it has been 
accomplished through its own efforts. When the Sino-Soviet split 
occurred in 1960, Chinese access to foreign technology was abruptly 
ended. As a result, China had to rely on its own efforts, in what 
became known as the ``two bomb, one satellite'' program. This effort 
saw the Chinese focus their national energies to develop an atomic 
bomb, a hydrogen bomb, and a satellite. This reflected the long-
standing dual-use nature of China's space efforts--if China was to have 
a full-fledged nuclear deterrent, it would have to develop a delivery 
system, which in turn could also serve as a space launch vehicle.
    ``Two bombs, one satellite'' went beyond a programmatic objective, 
however. The term also referred to the idea of homegrown development of 
advanced capabilities. Because of the Sino-Soviet split, as well as the 
ongoing Cold War with the United States and broader isolationist 
policies pursued by Beijing, Chinese development of these capabilities 
would have to wholly rely on their own resources. The phrase ``two 
bombs, one satellite,'' therefore, came to also be associated with the 
idea of indigenous development and self-reliance. These characteristics 
remain hallmarks of today's Chinese space program. For the same reason, 
Chinese ``firsts'' (e.g., the first satellite and first manned mission) 
tend to be of longer duration and incorporate more extensive tasks than 
other nations' firsts.
    Moreover, in keeping with the Chinese memory of the ``Century of 
Humiliation,'' Beijing will want any cooperative venture to be, at a 
minimum, on a co-equal basis. For the PRC to be treated as anything 
other than a full member in any program or effort would smack of the 
``unequal treaties'' that marked China's interactions with the rest of 
the world between 1839 and 1949. For the same reason, China has 
generally been reluctant to join any organization or regime in which it 
was not party to negotiating. For the CCP, whose political legitimacy 
rests, in part, on the idea that it has restored Chinese pride and 
greatness, this is likely to be a significant part of any calculation.
    At the same time, space is now a sector that enjoys significant 
political support within the Chinese political system. Based on their 
writings, the PLA is clearly intent upon developing the ability to 
establish ``space dominance,'' in order to fight and win ``local wars 
under informationized conditions.'' \8\ The two SOEs are seen as key 
parts of the larger military-industrial complex, providing the 
opportunities to expose a large workforce to such areas as systems 
engineering and systems integration. It is no accident that China's 
commercial airliner development effort tapped the top leadership of 
China's aerospace corporations for managerial and design talent.\9\ 
From a bureaucratic perspective, this is a powerful lobby, intent on 
preserving its interests.
---------------------------------------------------------------------------
    \8\ For a more extensive discussion of this topic, please see Dean 
Cheng, ``China's Military Role in Space,'' Strategic Studies Quarterly 
(Spring 2012), http://www.au.af.mil/au/ssq/2012/spring/cheng.pdf 
(accessed April 7, 2014).
    \9\ Mark Stokes, ``China's Commercial Aviation Sector Looks to the 
Future,'' Futuregram 09-002, Project 2049, http://project2049.net/
documents/chinas_commercial_aviation_sector_
looks_to_the_future.pdf (accessed April 7, 2014).
---------------------------------------------------------------------------
    China's space efforts should therefore be seen as political, as 
much as military or economic, statements, directed at both domestic and 
foreign audiences. Insofar as the PRC has scored major achievements in 
space, these reflect positively on both China's growing power and 
respect (internationally) and the CCP's legitimacy (internally). 
Efforts at inducing Chinese cooperation in space, then, are likely to 
be viewed in terms of whether they promote one or both objectives. As 
China has progressed to the point of being the world's second-largest 
economy (in gross domestic product terms), it becomes less clear as to 
why China would necessarily want to cooperate with other countries on 
anything other than its own terms.
Prospects for Cooperation
    Within this context, then, the prospects for meaningful cooperation 
with the PRC in the area of space would seem to be extremely limited. 
China's past experience of major high-technology cooperative ventures 
(Sino-Soviet cooperation in the 1950s, U.S.-China cooperation in the 
1980s until Tiananmen, and Sino-European space cooperation on the 
Galileo satellite program) is an unhappy one, at best. The failure of 
the joint Russian-Chinese Phobos-Grunt mission is likely seen in 
Beijing as further evidence that a ``go-it-alone'' approach is 
preferable.
    Nor is it clear that, bureaucratically, there is significant 
interest from key players such as the PLA or the military industrial 
complex in expanding cooperation.\10\ Moreover, as long as China's 
economy continues to expand, and the top political leadership values 
space efforts, there is little prospect of a reduction in space 
expenditures--making international cooperation far less urgent for the 
PRC than most other space-faring states.
---------------------------------------------------------------------------
    \10\ It is worth noting here that the Chinese Ministry of Foreign 
Affairs is not a part of the CCP Politburo, a key power center in 
China. Thus, the voice of the Ministry of Foreign Affairs is muted, at 
best, in any internal debate on policy.
---------------------------------------------------------------------------
    If there is likely to be limited enthusiasm for cooperation in 
Chinese circles, there should also be skepticism in American ones. 
China's space program is arguably one of the most opaque in the world. 
Even such basic data as China's annual space expenditures is lacking--
with little prospect of Beijing being forthcoming. As important, 
China's decision-making processes are little understood, especially in 
the context of space. Seven years after the Chinese anti-satellite 
(ASAT) test, exactly which organizations were party to that decision, 
and why it was undertaken, remains unclear. Consequently, any effort at 
cooperation would raise questions about the identity of the partners 
and ultimate beneficiaries--with a real likelihood that the PLA would 
be one of them.
    It is possible that the Chinese could be induced to be more 
transparent when it comes to space, although the unwillingness of 
Beijing to engage in substantive discussions on space during the last 
several Strategic and Economic Dialogues (S&ED) would cast doubt on 
this. But this would argue for a ``go-slow'' approach, at best. There 
is room for greater interaction, especially in the sharing of already 
collected data, such as geodesy information. As both sides set their 
sights on the moon, exchanges of data about lunar conditions and the 
lunar surface and composition all might help create a pattern of 
interaction that might lower some of the barriers to information 
exchange. Even there, however, concerns on both sides about information 
security and electronic espionage, etc., is likely to raise serious 
doubts about how freely one should incorporate data provided by the 
other side.
    The Heritage Foundation is the most broadly supported think tank in 
the United States. During 2013, it had more than 600,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2013 operating income came from the following sources:

Individuals                                         80%
Foundations                                         17%
Corporations                                        3%
 

    The top five corporate givers provided The Heritage Foundation with 
1 percent of its 2013 operating income. The Heritage Foundation's books 
are audited annually by the national accounting firm of McGladrey & 
Pullen. A list of major donors is available from The Heritage 
Foundation upon request.

    Senator Rubio. Let me begin with Mr. Chiao.
    You mentioned at the close of your statement about 
cooperation with China. Let me step back for a second and make 
this statement. We Americans have always viewed the space 
program, certainly over the last 30 years, as the sort of 
cooperative effort that certainly helps our country but 
benefits all mankind. We have viewed it as a peaceful endeavor, 
as one that can unite people. And we've seen the fruits of it.
    But I think we have to be cautious that not every other 
nation has the same view. And I think China, in particular, 
potentially poses a pretty interesting dilemma for us. 
Certainly, their space program has military components but our 
space program is largely driven by civilians and has civilian 
methodology and civilian purposes behind it. Everything in 
China, but certainly the space program, is deeply linked with 
the PLA and we've seen evidence of that.
    I would like to further expand on your statement. I don't 
necessarily disagree. I think in an ideal world we'd want 
cooperation with China because I think three major powers: 
Russia, China, the United States, and others working in 
conjunction if in fact we all have the same goals could 
certainly get some of these things accomplished quicker than 
any nation on its own.
    But I also think we have to be careful and realistic that 
we not somehow ascribe our motivations and our way of thinking 
to that of another nation that perhaps has different aims and 
goals for their space program. And one of the things 
highlighted in Mr. Cheng's written testimony is warnings about 
that. About the threat of potentially seeing China use 
sensitive information to improve its ballistic missile 
capability and so forth but also its desire to quite frankly 
achieve what they have termed in their own documents and what 
they've called ``publicly spaced dominance'' which is not our 
view. The U.S. may not necessarily want to be the most 
predominant space power in the world but we don't view it as a 
dominance thing, we view it as something that great nations do 
great things.
    So here's my question. In your experience, and certainly 
because you've mentioned it in your statement, do you see any 
potential pitfalls in terms of the Chinese attitude toward the 
space program that, in essence, places them in an incompatible 
position to our own view to what space would be about?
    Dr. Chiao. Well, as you mentioned, and it's certainly true 
that the Chinese space program is part of the PLA. Now 
operationally-wise and that's kind of the way I think, you 
know, I understand the distinction but functionally it 
shouldn't make that big of a difference because we're going to 
be working on civil space together. And they have a clearly 
delineated civil space part of their organization. So I don't 
see any roadblocks if you were or stumbling blocks.
    And as far as sensitive information is concerned, we have 
the safeguards that we can put in place to make sure that there 
are no technology transfers. And, you know, frankly from a, you 
know, guidance system, ballistic missile, those aren't things 
that we work on at NASA. We don't develop the guidance systems. 
We certainly don't transfer it to our partners, information 
like that. So it can be controlled and, as far as I know, it 
has been very successfully controlled with our relationship 
with the Russians.
    Senator Rubio. And again, the ideal scenario is that we 
will be able to work with them cooperatively. I'm just always 
concerned that somehow we ascribe to other countries the same 
motivations as we have for the space program and sometimes that 
those things don't add up. And I just want to make sure we're 
cautious about it.
    But I think we all share your goal that it's achievable 
which I pivot now to Ms. Eisenhower. Your testimony was about 
Russia. And I think you've raised some interesting points in 
your testimony about things like, for example, Russian 
scientists associated with the space program are among the most 
progressive elements in their society. We've enjoyed a 
depoliticized relationship with them. There are safety concerns 
about cutting off interaction with them. And then, there is 
also the geopolitical realities of what's in the headlines 
today.
    Maybe you can expand a little more about how we balance 
those two things. Because, on the one hand, there are 
geopolitical realities. I think when Americans see what's 
happening in Ukraine, we're uncomfortable about the fact that 
we're paying the Russians, what is it, $70 million to go to the 
International Space Station. Does that sound right?
    Ms. Eisenhower. $70 million, sorry?
    Senator Rubio. To get a seat on those flights to the 
Russians. And we depend on them now, for being able to launch 
our astronauts into space. So you can understand the political 
implications of that domestically. And on the other hand, 
you've raised some interesting points--that we don't want to 
cut off the scientific community in Russia that quite frankly 
has been either apolitical or in many instances progressive in 
their thought process in terms of our ongoing relationship. And 
it seems to be a relationship that has some significant degree 
of cooperation. It has been able to overcome whatever is 
happening politically elsewhere in the world.
    So perhaps you can describe that a little bit better for 
us, in terms of what that actually looks like and maybe a 
roadmap moving forward. How do we navigate this, for a lack of 
better term, minefield that we find ourselves in?
    Ms. Eisenhower. Thank you very much, Senator Rubio. And 
it's an honor to be able to be here and to share my thoughts on 
this.
    I think this requires, this particular situation, requires 
a really very nuanced strategy, which of course is extremely 
difficult in today's world where everything is given a bumper 
sticker.
    But, nevertheless, I think a nuanced approach is important 
for the simple reason that we want to make sure that we express 
our displeasure with Russian behavior and we do so in a way 
that's going to count with the regime and not punish our 
friends. Everybody here would back me up by saying that the 
Russian space program is much more important, or space in 
general, is much more important in Russia than it is in this 
country. If this were a Duma committee you would have a full 
room. And so, yes, it has a very big symbolic impact but we 
have made extraordinary strides in the last 20 years in 
bringing what was a very, very hardline aerospace community 
into a fully cooperative relationship as we've seen over the 
last years.
    If I were in charge, I would be organizing sanctions to hit 
exactly at the heart of the regime itself: the people that 
interact most directly with Vladimir Putin and others. If the 
scientific community had that kind of influence with Vladimir 
Putin, they would not have lost their recent political struggle 
over the future of the Russian Academy of Sciences. So I do 
think that that is the political reality on the ground.
    And then, the other point I would make is that none of this 
interaction--maybe this'll actually have some reference to Dr. 
Chiao's comments too, about China. I think we engaged the 
Russian Federation after the collapse of the Soviet Union, not 
to do them a favor, but to do us a favor. We gained 
unprecedented access to some of their most sensitive 
facilities. And I think, if you look at the China situation, we 
could well gain every bit as much as they might in terms of 
understanding how our two societies view this area; this 
important area. And also, to give us that kind of access in 
China. Bill Gerstenmaier played a leadership role in 
negotiating the agreements with the Russians at that time.
    By the way, I have supplied a copy of Partners in Space for 
both of your committees. But, in any case, I think this is 
really about enhancing our national security and we want to 
make sure that we don't jeopardize our national security and 
lose access to those important communities while we're 
legitimately trying to express our displeasure to the Russian 
government.
    Senator Rubio. And for my last question, I'm going to go 
back to you, Mr. Gerstenmaier. Because I think in your written 
testimony--but this is open to any of you that want to answer 
this because I think this is a more, big picture, broader 
question. In your statement you talked about, ``To channel all 
of the factors that have enabled our space achievements to date 
in a way that will ensure a sustainable foundation under which 
future generations can continue to build.''
    I think the key part for me of that statement is ``future 
generations,'' and the notion that we, the scientists, and 
engineers, many of the people who will work on a 2030 mission, 
for example, to Mars are probably in college right now or 
thinking about what they're going to major in in college. And 
maybe I'm wrong, but my sense is that on a broader public 
level, we have lost some of the public awareness and/or 
enthusiasm of what the space program means for the country and 
I would like some ideas from you, I guess--from all of you, is 
on how we can reinvigorate that.
    I think if you go back to 1960 when President Kennedy made 
that promise that we would land a man on the Moon and return 
him safely to Earth by the end of the decade. That invigorated 
the American scientific community to pursue with a singularity 
of mind that in addition to getting a man on the Moon and back 
safely--also, by the way, held all sorts of commercial and 
technological advances that were made that benefited our 
economy and society as a whole.
    How can we reinvigorate a new generation of people to 
pursue or go into these fields that are so critical? And, more 
importantly, this comes at a time when we have so many young 
people looking for what fields they can go into that will 
provide stable middle and higher income jobs that have 
opportunities in the twenty-first century.
    So my question is, from a public relations standpoint, what 
can we do more of to excite people about what space can mean 
for the future and get more people interested in the fields 
that are the backbone of any successful endeavor?
    Mr. Gerstenmaier. That's a really difficult question. You 
know, my experience has been, when I expose folks to what we're 
doing, and by folks I think of high school kids and maybe even 
grade school kids, they really get excited about what we're 
doing. And sometimes, when I'm kind of down in the mouth and 
I'm worried about sequester and budgets and I look at all the 
wonderful things we could do if we just had more budget, I 
forget what we're really doing with what budget we have. And 
when I go expose some of the younger students and some of the 
other folks to what we're doing, that excitement comes back and 
then I get reenergized again and then I'm ready to go back.
    So one thing is I think we need to talk to them unashamedly 
about what we're doing and capture some of the excitement. If 
you think about what we're doing with the Asteroid Redirect 
Mission, we're going to grab a piece of the solar system. We're 
going to deflect it around the Earth to deflect it around the 
Moon and insert it into a distant retrograde orbit around the 
Moon where our crews can go visit with the Orion capsule.
    You know, that seems kind of boring to some folks when I 
say all that, but if you talk to some kids that are still 
excited and they think about what we're really doing. That has 
a really big deal. I mean, to think we are moving a piece of 
the solar system for our use that will allow us to learn skills 
and techniques that we need to push human presence into the 
solar system, that's a pretty awe-inspiring statement.
    But I think we get so jaded because we talk about, well, 
why don't we go to the Moon or let's go to Mars or let's do 
some other activity. We have kind of, you know, buyer's 
neglect, right? It's when you order your food in the cafeteria 
and you look over and you see what somebody else ordered and 
immediately what's in front of you isn't appetizing enough. You 
wish you would have ordered what that person next to you did. I 
think we have to ignore that a little bit and look at what 
we've got in front of us with what this country can do and not 
be ashamed about what we're doing moving forward.
    Senator Rubio. And by the way, I agree. I don't have a 
public polling on this, but I would venture to guess that an 
extraordinary majority of Americans are unaware of the 
existence of that program. Certainly, a majority of our young 
students and even in college are. And I think we can rally 
people around a goal like that. But I think it's incumbent upon 
us in public office who hold these positions and have these 
forums to make people aware of what we are actually working on; 
what's there and what's tangible.
    I think people would be very excited about thinking that 
they can be a part of an effort like that or the subsequent 
efforts that will lead off from that. But, I just think a lot 
of people don't even know we're doing that.
    Dr. Chiao. Yes.
    If I could just add a few comments. I think the key to 
stoking public interest is flying more and flying sooner. And 
that's why, in part of my remarks, I talked about the need for 
possibly a new subprogram of earlier flights that'll get us 
Beyond-Low Earth Orbit more quickly.
    Now, as I mentioned also, for a sustainable program we do 
need a heavy-lift like SLS and Orion. And as Mr. Gerstenmaier 
has said in his remarks, I think it's absolutely possible that 
we can do these kinds of missions in partnership with 
commercial and with international and just do it maybe without 
a lot of big increases in the NASA budget.
    So I'm hopeful that somewhere in the near to mid-term we 
could be flying more often and doing missions that will develop 
the capabilities to go back to the Moon one day and then on to 
Mars. And this could be done in partnership context that might 
be very creative and synergistic, and I think that's the way we 
get the public interested in space flight.
    Senator Nelson. That is correct. Once you start putting 
Americans on American rockets, the interest in this country is 
going to accelerate. How many people have come up to me and 
said, ``Did you see the movie `Gravity'?''
    They were really gripped by it. Well, they'll be gripped 
when you see an American climbing in and strapping into an 
American rocket. And that's the good news. The bad news is that 
it's going to be 2017, in a commercial rocket getting to the 
space station (unless you believe some of the commercial 
companies that it can be 2016) and then Orion, it's not going 
to be until 2021. But these things are complicated. And so, 
that excitement will return, but we've got to keep pressing on.
    We have a vote that is called right now. I'm going to 
recess and quickly run over and vote and come right back. It's 
not a series of votes. It should be just one vote. And then 
we'll continue with the questions.
    Thank you so much.
    The Committee will stand in recess.
    [Recess.]
    Senator Nelson. The Committee will resume.
    I want to ask a quick question to a couple of you about the 
Commercial Crew Program.
    Mr. Gerstenmaier, would additional funding allow us to 
speed up the start of domestic flights to the ISS?
    Mr. Gerstenmaier. Again, I think probably the most critical 
thing, right now, is to get the funding that we've requested in 
the President's budget in 2015. We have a pretty solid plan. 
Our goal is to select a commercial provider in the August-
September timeframe of this year. But to make that happen and 
to be there by the end of 2017, as we've talked about, I really 
think we absolutely need the funding level that the President 
has requested. 2015 is probably one of the more critical years 
in terms of where we are in development and activities. This is 
really the paramount year of when we need funding for 
Commercial Crew.
    So any support we can get to the President's budget for 
that activity is absolutely what we need.
    Senator Nelson. So the answer to that question is yes, 
because the President had requested about $850 million for 
Commercial Crew and over the years, it had gone from $300 
million to $500 million to develop Commercial Crew, start the 
competition, et cetera. Then, to about $700 million and now, 
for Fiscal Year 2015, which starts October the first, to about 
$850 million. I agree with you. And so, the answer is yes.
    All right. Dr. Chiao, how does commercial access to Low 
Earth Orbit support further exploration?
    Dr. Chiao. Well, thank you for the question, Senator.
    Commercial Crew will ensure access for Americans to the 
International Space Station. And, as you know, the ISS is 
designed to be operated internationally. That is we need the 
crews on the ground and in the station working together in 
conjunction in order to effectively operate the space station.
    The space station is critical for developing the medical, 
biomedical countermeasures that we need to develop and test 
before we can send crews Beyond-Low Earth Orbit for any 
significant period of time. The station also, of course, serves 
as a test bed for technology, although, new things that we're 
going to be developing and proving out before we can start 
sending crewed missions farther from the Earth for longer 
durations. And so, in that way Commercial Crew very directly 
supports the station which directly supports the Beyond-Low 
Earth Orbit program.
    Senator Nelson. Ms. Eisenhower, what lessons might we take 
away from the lapse of, what you mentioned in your testimony, 
of the need for engagement even during diplomatic uncertainty? 
The space cooperation agreement between the U.S. and the then-
Soviet Union lapsed in the years following the Soviet invasion 
of Afghanistan. So, given from that lapse, what was the key to 
managing the relationship through the many crises of the Cold 
War?
    Ms. Eisenhower. Yes. Well, that lapse between Apollo-Soyuz 
and 1992, when the Shuttle Mir program began, I think the 
biggest impact is that a generation of people were lost who 
actually knew how to engage in this kind of cooperation. Even 
though Apollo-Soyuz was not a huge program, there just wasn't 
the interactive culture that we see today. And one reason I'm 
concerned about space being involved in some of the measures we 
may take in response to the current crisis, is that it would be 
very sad to see anyone disengaged in this process because long-
term space cooperation is going to require the Russians, long-
term. So I think that gap does have workforce implications.
    As I said in my testimony too, the Eisenhower 
Administration, which was the administration in power during 
the dawn of the space age, was also at a crucial stage at the 
early part of the dawn of the nuclear age. The administration's 
greatest concern was the development of what might be called 
``paranoid uncertainty.'' And so, these kinds of programs, that 
would be the Atoms for Peace conferences and later work around 
the International Geophysical Year, as being stabilizing. 
Precisely because of those crises.
    It's remarkable that, after Sputnik actually, the United 
States and the Soviet Union engaged in private negotiations 
over the future of Antarctica. And it was as a result of the 
International Geophysical Year and the fact that that 
cooperation had not suspended that we managed to demilitarize 
an entire world continent, which is the Antarctic, which is, 
today a real test bed and laboratory for the scientific 
community.
    So I think I know that, as NASA understandably goes through 
reviewing all of its programs, that it should not underestimate 
the importance of these conferences because the conferences, in 
fact, at least in the past, played a very significant role.
    Thank you, Senator.
    Senator Nelson. Would you think that that kind of 
collaboration that you're talking about, would that ultimately 
apply to our relationship with other up-and-coming space-faring 
nations, such as China and India?
    Ms. Eisenhower. Well, I must say that since cooperation 
with Russia since 1992 has been so successful, I really do 
think that it makes a lot of sense to be able to look at 
engaging other countries more deeply. As I said earlier, we 
didn't do it for them, we did it for us.
    We not only had an opportunity to create more transparency, 
but actually, in the book Partners in Space, which I've left a 
copy for you, we learned a lot from the Russians too. They had 
some very, very elegant ways of handling complex situations on 
a very tight budget; which actually could be quite a useful 
discipline these days. I'm sure the Chinese have very 
interesting and creative ways of looking at solving exactly the 
same kind of problems in space.
    And that's why I alluded to the fact that we in fact have a 
much more robust effort in space today because we did share 
ideas about how to solve some of these common problems. What 
came together, actually, at the end was something that was 
really not like the way it was for anybody before, because we 
put different scientific and technological perspectives 
together to create something very robust and strong.
    Senator Nelson. I must admit that I am shaped in part by my 
past experiences, for example, in the 1980s. Out of an 
administration policy in the 80s, they started allowing 
American satellites to be launched on Chinese Long March 
rockets. And basically, there was supposed to be a firewall 
there so that they couldn't get our technology and, of course, 
they got it.
    It's many years later and we're confronted with a different 
situation but I personally think that the United States was 
taken advantage of by the Chinese, because of some well-meaning 
folks in the administration at the time. They were so well-
meaning, in my judgment, they were naive. But it is what it is. 
And here we are in the year 2014. What do you think, Dr. Chiao, 
about the international collaboration? And do you think we can 
best engage now with these up-and-coming space-faring nations?
    Dr. Chiao. Well, Senator, I have to admit, in the early 
90s, you know, I grew up during the Cold War. And so, during 
the early 90s I was one of the skeptics of working with the 
Russians and I was wondering why we were doing this. But after 
I went over there and started working with these folks and 
started seeing the advantages and the big picture of 
international relations and bettering things not only between, 
you know, cooperating in space but just between our two 
countries, I became a big believer in international 
collaboration.
    And so, I think there will always be risks. I mean, first 
of all, you know, it's clear to everyone, I think, that the 
Russians are trying to spy on us, you know, the Chinese are 
trying to spy on us. We're spying on everyone. Everyone is 
spying on everyone else. So there are going to be attempts to 
get technology from all sides. And I think the safeguards that 
we have in place, that we put in place with the Russians, as I 
mentioned earlier, I'm not aware of a single instance where 
there has been an inappropriate transfer of technology.
    Now, to your point about the Chinese missile technology 
being benefited from some American advice, unfortunately, that 
was due to naivete at the time I think. It was not anything 
directly to do with launching satellites on their vehicles 
except that in the post-accident investigation some American 
experts naively gave them some advice which probably helped 
improve their rockets. That's something we've learned from I 
think. And as I mentioned, the safeguards that can be part of 
the safeguards that I think will make the benefits of 
cooperating more outweigh the risks of possibly losing some 
technology.
    As Ms. Eisenhower mentioned, you know, we can gain great 
insights into the Chinese program. I've been over and seen 
their technology. I've seen their rocket factories and their 
space center, their control center, and it's impressive. 
They're doing some really impressive things. And I think we 
would gain a lot of insight into what they're doing in this 
relationship if it were to happen.
    Senator Nelson. Ms. Eisenhower, do you have an additional 
comment on how did the United States still manage to benefit 
from the Russian technologies even though we beat them to the 
Moon? As a matter of fact, they had a big rocket and it blew up 
on the pad. And it was their Moon rocket.
    Ms. Eisenhower. Are you talking about the period after----
    Senator Nelson. Back then.
    Ms. Eisenhower.--started cooperation? Yes.
    Senator Nelson. Right.
    Ms. Eisenhower. Well----
    Senator Nelson. With the Soviet Union.
    Ms. Eisenhower.--first of all, some of this is outlined in 
my book. But I think we learned, for instance, a number of 
things that the Russians, for instance--and actually probably 
Bill ought to be answering this question in large measure. But 
we learned a lot about how a completely different group of 
people would launch rockets. They were organizing their rocket 
launches--having their rockets horizontally maintained and then 
hoisting them up and launching them. I think we learned a lot 
about redundancy. Help me here, Bill. It's been a long time 
since I wrote that book, but we used numerical redundancy. They 
used functional redundancy. Would you like to maybe--could I 
cede my----
    Senator Nelson. Absolutely.
    Mr. Gerstenmaier. I'd just say, again, we've learned an 
awful lot and both Jeff and Leroy can also add their own 
experience.
    When you solve the same physical problems and you see 
another country, another group of engineers, solve that same 
physical problem, and because you've been isolated, you see 
their solution to that problem in a very different light. And 
that gives you tremendous exposure. And that's one of the true 
advantages of cooperation.
    Space station is amazing. If you look at the heat shield, 
the debris shields on the outside of a space station, there's a 
Russian design for--and we're all protecting ourselves from 
micrometeorites; small penetrations of the pressure shell.
    You can see how the Russians solved the problem; you can 
see how the Italians solved the problem; you can see how the 
Europeans solved the problem; how the Japanese solved the 
problems; and how the U.S. solves the problems. And every one 
of them does exactly the same job but they do it in a very 
different manner, fundamentally. So you gain a tremendous 
experience and a new way of thinking that really helps you 
become innovative and creative as you try to build your next 
program.
    Dr. Chiao. Yes. I would totally agree with all of those 
comments. You know, during my experience with the Russians, as 
I mentioned earlier, my going in position was why are we doing 
this, our stuff is so much better. What do we have to learn 
from them? But the fact is, as Mr. Gerstenmaier just said, the 
fact is that when you see perspectives, you know, different 
cultures, different entities, solve the same technical problems 
from a different approach, it really broadens your own 
perspective. And personally, having done spacewalk using both 
American spacesuits and Russian spacesuits, I really came to 
admire certain elements of their design, the approach and it's 
really been eye-opening. And that's just one example.
    Senator Nelson. So did Sandra Bullock in ``Gravity.''
    [Laughter.]
    Senator Nelson. Another example, I think, is the Russian 
engine, RD-180. It creates temperatures and pressures because 
of some alloys that they are very, very good at. That it's an 
extraordinary engine. And we have the license to it, but we 
don't know all the techniques of how they blend all those 
metals to be able to have that kind of thrust in an engine.
    Mr. Manber, tell me about--why do you, or do you think that 
we are nearing a point where commercial exploration could 
become viable?
    Mr. Manber. I know we are, because I have a lot of 
customers.
    [Laughter.]
    Senator Nelson. And why is that, that we're nearing that 
point?
    Mr. Manber. Well, apologies, Mr. Senator.
    I think the primary reason is the stability we enjoy and 
policy in Low Earth Orbit. We have actually reached a moment in 
the midst of all the politics we have in Washington where this 
Congress has given us, in the space community, at least the 10-
year horizon. And that is extraordinary.
    And we were about to lose a significant foreign customer, 
in fact, to the Chinese. And the reason was, they were looking 
at a long-term project onboard space station and we were 
planning to bring down the station in 2020 and the Chinese are 
out there commercially marketing this space station now. And 
when the announcement was made that we're extending it to at 
least 2024, they came back.
    And so, I think the answer to the question, and I think 
it's a lesson for us as we look at Beyond-Low Earth Orbit, is 
we have a stable policy now. We have robust transportation to 
and from the station. We have bipartisan agreement that the 
station should be continued. We have NASA not competing with 
the private sector. And we have a very good regulatory 
framework; the IGA, the Intergovernmental Agreement which lays 
out the rules of the road. In that environment, I'm willing, my 
investors are willing, to make investments, and customers are 
willing to make plans.
    So the answer to the question is we have a stable policy 
and existing hardware in space.
    Senator Nelson. And do you have any suggestions what NASA 
could learn from the commercial partners?
    Mr. Manber. Oh, do I.
    [Laughter.]
    Mr. Manber. Yes.
    What government does best, as Mr. Gerstenmaier has said in 
these hearings so many times--what government does best, what 
NASA does best, is plan and develop. The government does not do 
operations that well in any industry. They don't run our 
airlines, they don't, you know, they don't operate our car 
industry. You don't rent a car from a government agency.
    And so, I think what NASA can learn from the experience we 
are having together on the space station, is to relax a little 
bit. If they can provide, with congressional funding, the 
infrastructure, let the commercial sector in on it.
    We have a small satellite program now on space station. We 
just deployed 33 small satellites on the station with no 
additional taxpayer funding. We took the risk, we invested the 
money, we built the hardware, we got it through the NASA safety 
process and the Japanese Space Agency safety process, and it's 
all working fine. And I think what we're learning is: NASA 
should not be trying to do the bells and whistles. Provide the 
opportunity, provide the infrastructure if that's, you know, 
the basic facilities, and then let the commercial sector invest 
its own funds. We still don't have a NASA contract, 
unfortunately.
    But no, we still don't have a NASA contract. And we're very 
happy with that because they don't design our hardware and we 
take the risk. And so, I think the lesson for both sides to 
learn is let the commercial sector do what we do best in any 
market including space.
    Senator Nelson. What can the commercial efforts do to 
generate more excitement among young people until we can 
actually get American bodies in American rockets flying back?
    Mr. Manber. When we started NanoRacks, we did not start to 
do education. I'm not a teacher. I didn't think of education. 
Today, we have an unbelievable program at NanoRacks where, 
through our educational partners, we've flown over 45 or 50 
school districts in America. We're flying Florida high schools, 
universities--there's a program in California at Valley 
Christian which is now 14 Christian high schools.
    It's even gone international. We fly Israeli high schools. 
All with no NASA funding. It's not a NASA program. NASA is the 
landlord. NASA is the safety. NASA and the taxpayers have given 
us this opportunity. And I will say that, you know, NanoRacks 
is a small company. We're not in ``Space News'' and the 
industry publications that often. But we're in the, you know, 
``Albany This'' and all these small-town newspapers where we're 
giving these kids the opportunities. We have parents doing bake 
sales to fly on the space station. And we have some students, 
now, that have gone from high school to Stanford and other 
national universities.
    And both at the high school level and in university, 
they're doing projects on space station through us. And so, I 
guess the answer to your question is we move so quickly, we're 
able to do these student projects in one school-year. And it 
takes NASA, unfortunately, far longer to get through the 
process and the payload integration for whatever reason.
    And so, I think the answer is just with us willing to 
invest our own hardware, education, partner with educational 
schools, we're partnering with CASIS now, the nongovernmental 
organization, to do even more schools. And I think at times 
people get bothered when you put the word ``commercial'' and 
``education'' in the same sentence.
    But I think what we're seeing is we move so quickly, we 
invest our facilities, the teachers say that kids never forget 
that opportunity. So the more that we--we're not an educational 
company--the more folks who come to us to do it, the more 
schools, high schools, homeschooling (we're even reaching out 
to now), the better it is. And I think there's a lot of 
excitement under the surface.
    What Senator Rubio was talking about, I think, under the 
surface there's a lot of excitement on station. We shouldn't 
forget about space station.
    Senator Nelson. You dealt in commercialization with the 
Russian station, Mir. Is that correct?
    Mr. Manber. Yes, it is. I admit it.
    Senator Nelson. From that experience and your ISS 
experience, what would you anticipate would be your challenges 
on a Chinese station?
    Mr. Manber. You mean, commercially or----
    Senator Nelson. Commercially.
    Mr. Manber. Well, the Chinese are now competing against us 
now, and I'm trying to match, already, what I know what their 
prices to be.
    First, what I've learned from the experience with Mir is 
you can market a space station. That was where we learned you 
can.
    And second, you can work with a government's agency even 
if, and in this case it was Russian, a different government. I 
think what we'll learn is that, from all indications we're 
seeing at NanoRacks, is that the Chinese will pursue a 
commercial pathway. They're offering, already, opportunities 
with other sovereign nations in exchange for minerals or 
exchange for other opportunities.
    And so, I think what I'm taking away from the experience on 
Mir and ISS is that the Chinese will be a formidable commercial 
competitor. I want to win in the marketplace not because 
they're Chinese but because they're a competitor to us. We can 
work with them but I think the lesson we have got to be clear 
on in this country is that space stations are commercial 
platforms. They have political purposes as well. They're 
important. They're going to be more important. And we need one.
    And I did fight in the 1990s to ensure that the Mir did not 
come down. And I lost that battle. But now, I'm fighting to 
make sure the ISS doesn't come down. And for many of the same 
reasons. It's extraordinarily critical that we keep the ISS 
going as long as it's technically feasible because it has 
political implications and it has commercial implications, as 
well, for us.
    Senator Nelson. We're going to try to do that in a NASA 
authorization bill if we can ever get over the problems of 
sequester.
    Mr. Manber. Yes. I appreciate that.
    Senator Nelson. Any final comments from anybody on the 
panel?
    Thank you. It's been most illuminating. Thank you for your 
expertise and your testimony. And thank you for your devotion 
to our space program.
    The meeting is adjourned.
    [Whereupon, at 11:51 a.m., the hearing was adjourned.]
                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        William H. Gerstenmaier
    Question 1. Due to budgetary constraints, NASA has previously had 
to withdraw from international collaborations, with notable examples 
including the ExoMars mission and, recently, the proposed suspension of 
the SOFIA airborne telescope. What steps can the government take to 
better protect its relationships with international partners during 
long-term mission planning?
    Answer. NASA has a long history of very successful cooperation with 
nations around the world, and part of that history has from time to 
time included actions taken by NASA and some by our international 
partners to re-phase, redesign, or even terminate planned cooperative 
activities. Even the most robust space partnerships, such as those 
among the International Space Station partners, have weathered such 
developments. Our partners are very aware that in all instances our 
cooperation is based on the availability of appropriated funds, just as 
we are aware that their participation has similar funding constraints.
    Currently, NASA has over 600 active agreements with over 120 
countries and anticipates that international cooperation will remain a 
cornerstone of all of its future activities. As international 
collaboration in space exploration continues to increase (as resources 
remain constrained world-wide), maintaining an open, frank dialogue 
with partners and potential partners will be a key component of sound 
international partnership practice.

    Question 2. Based on your substantial experience with and knowledge 
of international space exploration efforts, how might NASA's 
international partners collaborate with the United States on the 
asteroid redirect mission?
    Answer. NASA has identified a number of areas where international 
collaboration on the asteroid redirect mission could provide mutual 
benefit. Examples could include:

  <bullet> Data sharing and lessons learned analysis involving other 
        asteroid/small body missions;

  <bullet> Asteroid identification and characterization, both near term 
        as NASA works to down-select candidate asteroid targets, and 
        longer term to support preparation for the selected asteroid;

  <bullet> Asteroid capture system contributions including both 
        deployable structures and autonomous robotic manipulators;

  <bullet> Rendezvous sensor contributions that could be used for a 
        wide range of mission applications including automated 
        rendezvous and docking and asteroid characterization and 
        proximity operations; and

  <bullet> Secondary payload contributions to either the Asteroid 
        Retrieval Vehicle or the SLS that could advance either science 
        or future exploration capabilities.

    Question 2a. How might that collaboration benefit both partner 
space programs and our own?
    Answer. There is global consensus of the value of human and robotic 
exploration--with Mars as the ultimate destination--as reflected in the 
Global Exploration Roadmap released by the space agencies in the 
International Space Exploration Coordination Group (ISECG) in August 
2013. The ISECG member agencies further recognize that collaborative 
efforts toward this goal are necessary to maximize success in this 
multi-decadal endeavor while also strategically managing investments 
across national economies. Coupled with the need for space agencies to 
demonstrate near term, specific and collaborative steps toward that 
long-term goal, NASA feels that significant mutual benefit can be 
realized in each of the areas outlined above.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Dr. Leroy Chiao
    Question 1. Based on your substantial experience with and knowledge 
of international space exploration efforts, how might NASA's 
international partners collaborate with the United States on the 
asteroid redirect mission?
    Answer. International partners will collaborate with NASA on all 
Beyond-Low-Earth-Orbit (B-LEO) exploration missions, as an extension to 
the current collaboration on the International Space Station (ISS). 
Their astronauts will have future opportunities to fly on these 
missions. They will also contribute to hardware for the exploration 
programs. As an example, the European Space Agency (ESA) is currently 
developing the Service Module (SM) for the Orion spacecraft, which will 
enable it to maneuver in LEO. In addition, there will be opportunities 
to collaborate on an Earth Departure Stage and other hardware in 
support of the redirect mission.

    Question 2. How might that collaboration benefit both partner space 
programs and our own?
    Answer. International collaboration benefits all partners in many 
ways. First, it allows partners to have a stake in, and develop 
different components of the exploration program. This serves as 
technology drivers in their own countries, while providing employment 
in the aerospace and other high-technology sectors. Second, similar 
capabilities provide redundancies that have proven to be critical in 
the past. For example, the U.S. Space Shuttle supported the Russian MIR 
space station during the late 1990s. Similarly, the Russia Soyuz 
supported the ISS after the Space Shuttle Columbia accident. Third, 
working together on a very visible civil space program helps to improve 
overall relations between the partners, as they are all focused on a 
common goal. Furthermore, the partners are highly motivated to be 
successful, for the overall benefit of all partners. The ISS is a 
shining example of this.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
     
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
